App. 1
Opinion issued May 22, 2018
[SEAL]
In The Court of Appeals
For The First District of Texas
-----------------------------------------------------------------------

NO. 01-16-00765-CV
-----------------------------------------------------------------------

BERNARD J. MORELLO AND
WHITE LION HOLDINGS, L.L.C.,
Appellants
V.
SEAWAY CRUDE PIPELINE COMPANY, LLC,
Appellee
================================================================

On Appeal from the County Court at Law No. 3
Fort Bend County, Texas
Trial Court Case No. 13-CCV-050231
================================================================

OPINION
This is a statutory condemnation case. Seaway
Crude Pipeline Company, LLC sought to construct a
common-carrier crude-oil pipeline that would travel
the length of the State of Texas, from the Gulf Coast to
Oklahoma, and would include in its path a 115-acre
tract of land owned by Bernard Morello and a contiguous 82-acre tract owned by Morello’s holding company,
White Lion Holdings, L.L.C. (collectively, Morello),
near the City of Rosenberg, Texas. After Seaway and

App. 2
Morello failed to agree on terms for the pipeline installation, Seaway began condemnation proceedings. Special Commissioners were appointed, and an appraisal
of damages was determined. Morello filed objections in
the trial court.
Seaway moved for partial summary judgment, and
Morello filed a plea to the jurisdiction. Both motions
addressed whether Seaway effectively declared a necessity for the taking and, if it did, whether Morello
presented any summary-judgment evidence in support
of his affirmative defenses that Seaway acted arbitrarily or in bad faith, which, if found, would remove the
conclusiveness of Seaway’s necessity determination.1
The trial court ruled in Seaway’s favor on both motions.
Seaway also moved to strike various experts retained by Morello to opine on future uses of his property, damages for the taking of the easement, and
damages to the remainder of the property because of
the taking. The trial court granted Seaway’s motions to
exclude, leaving Morello without damages evidence on
lost market value of the remainder.
The trial court entered a final judgment in Seaway’s
favor, holding that Seaway could condemn easements
across the land and ordering an award of approximately $88,000 to Morello for the taking, which was
1

Both parties agree that the necessity determination, as applied
to the facts of this condemnation challenge, is a jurisdictional requirement. See Whittington v. City of Austin, 174 S.W.3d 889, 903
n.11 (Tex. App.—Austin 2005, pet. denied) (“Whittington I”).

App. 3
the amount Morello’s expert had opined was the market value of the property actually taken, without any
compensation for loss of market value of the remainder
of the land.2 See City of Austin v. Cannizzo, 153 Tex.
324, 267 S.W.2d 808, 812 (1954) (noting that, when government takes only part of property, three controlling
issues are (1) “market value of the land taken, considered as severed land,” (2) “market value of the remainder of the tract immediately before the taking,” and (3)
“market value of the remainder of the tract immediately after the taking”).
Morello challenges the trial court’s judgment in
four issues. In his first two issues, he contends that the
trial court erred in ruling for Seaway and against him
on Seaway’s summary-judgment motion and his plea
to the jurisdiction. He argues that Seaway failed to
demonstrate that it determined a necessity for the taking and that he proved, or at a minimum presented
more than a scintilla of summary-judgment evidence
in support of, his affirmative defenses. In his last two
issues, Morello contends that the trial court erred in
denying his motion for costs and in excluding and limiting his experts’ testimony.
We affirm.

2

Seaway was authorized to immediately construct the pipeline within the court-authorized easement, even though Morello
appeals the judgment. The pipeline was completed and went into
service in late 2014.

App. 4
Background
There are currently three Seaway pipelines that
cross Morello’s two tracts of land (the Property). The
first pipeline was laid in 1975, before Morello purchased the Property. The second pipeline was laid in
2014 and is the subject of this suit. A third pipeline was
laid afterward and is not a part of this litigation.
First Seaway pipeline
In 1975, a previous owner of the Property entered
into a Permanent Easement Agreement with Seaway
that established a 60-foot pipeline easement running
north-south across the Property. According to Morello,
the terms of the 1975 agreement were favorable to the
landowner and his future development of the land because Seaway agreed that it would move the pipeline
at its own expense to allow future development. Since
the 1970s, Seaway has operated a common-carrier
pipeline that crosses the Property under the terms of
the 1975 agreement as the pipeline travels from the
Texas Gulf Coast to Oklahoma.
Morello purchases land with existing pipeline and other burdens
Morello purchased the Property in 2004. The land,
combined, is approximately 200 acres. When purchased, the Property already had the 1975 easement
and pipeline in place. It also was subject to a 1988
Texas Commission on Environmental Quality compliance plan that addresses groundwater contamination

App. 5
in the northeastern corner of the Property that resulted from earlier use of the site for industrial pipe
manufacturing. Three vacant metal buildings remain
in that corner of the Property. The TCEQ plan limits
the use of the 17 acres surrounding those buildings.
Litigation between the TCEQ and Morello regarding
plan compliance and related penalties remained pending when the trial court heard the dispositive motions
in this litigation.3
Of particular interest to Morello, the Property has
rail lines along its southern border. The lines are used
by Union Pacific Railroad and Kansas City Southern
Railroad. The Property has 3,500 feet of rail line frontage but has no railroad spurs to connect it to the rail
lines. There is a high-voltage electricity transmission
line, with its own easement, that runs between the
Property and the rail lines.
There are roadways along two sides of the Property to the east of the 1975 pipeline. Scott Road is on
its eastern boundary and can support industrial and
heavy traffic. Muegge Road is on its northern boundary
and can support only lighter traffic. There is no road
frontage or improvements to the west of the pipeline.
Below is a rough schematic of the Property.

3

In 2006, the State sued Morello and White Lion for violating the 1998 TCEQ compliance plan. See State v. Morello, No. 160457, ___ S.W.3d ___, ___, 2018 WL 1025685, at *1 (Tex. Feb. 23,
2018); White Lion Holdings, L.L.C. v. State, No. 01-14-00104-CV,
2015 WL 5626564, at *2 (Tex. App.—Houston [1st Dist.] Sept. 24,
2015, pet. denied) (mem. op.).

App. 6

In Morello’s view, the Property’s proximity to the
rail lines made it ideal for a “rail-served, heavy truck
served, industrial warehouse development.” In 2009,
five years after he purchased the Property, Morello
wrote a letter to Kansas City Southern Railroad (but
not the other rail line, Union Pacific) about obtaining
rail service to the Property. He enclosed a summary
site plan and aerial photograph of his land but did not
specifically state his plans or provide any drawings or
schematics for a rail-served industrial distribution
center.4
4

In March 2015, almost two years after the taking, Morello
again contacted Kansas City Southern Railroad about obtaining
rail service to the Property. The railroad responded in writing,
stating that before it could hold any productive conversations
with Morello, it would need projections on rail use, “including but
not limited to rail traffic volumes, origins and destinations of rail
traffic, frequency of loading and offloading, commodities and products shipped, and type of rail cars used,” along with a diagram
and conceptual plan for the development. There is no evidence
that Morello provided the requested information.

App. 7
In this lawsuit, Morello has stated an intent to develop the Property for heavy industrial use and to connect the land to the rail lines, but the record does not
contain any evidence that he has taken any concrete
steps toward that development. The land has remained
relatively unchanged since its purchase, with no industrial development. It continues to be in a raw, undeveloped state, except for the three older metal buildings
that sit vacant.
Morello enters into development agreement
with City of Rosenberg
In 2012, Morello executed a Development Agreement with the City of Rosenberg that kept the Property in the City’s extraterritorial jurisdiction and
immune from city taxes but also required Morello to
obtain the city’s prior written consent to use the Property for anything other than agricultural use. The Development Agreement remains in effect until 2027.
Seaway plans second pipeline parallel to first
That same year, Seaway decided to add a second
pipeline to its common-carrier pipeline system. The $2
billion upgrade would allow it to move crude oil in both
directions simultaneously. The new pipeline would
cross 2,820 separate tracts of land and travel in
“mostly a straight line” parallel to Seaway’s existing
pipeline from the Texas Gulf Coast to Oklahoma. Because the first pipeline transverses Morello’s land, the
second pipeline would as well.

App. 8
In June 2012, Seaway adopted a unanimous written Consent of its management committee, which
states that the committee “hereby determines that
there is a public need and necessity” to have crude petroleum transported by a second pipeline through various listed Texas counties as part of its common-carrier
system. Cf. TEX. NAT. RES. CODE § 111.019(a)-(b)
(providing that common carriers may condemn rightsof-way and easements “necessary for the construction,
maintenance, or operation of the common carrier pipeline”).
Seaway undertook to acquire the easements necessary to construct the second pipeline parallel to its
older pipeline. It selected the amount of land needed,
according to its project management, with the goal of
making the project “as safe as possible, as timely as
possible, and as cost effective as possible.” Seaway
sought a 50-foot easement across the Property, adjacent to its existing 60-foot easement.
Seaway contacts Morello about acquiring the
second easement
As part of the state-long project, Seaway approached Morello regarding a 50-foot-wide pipeline
easement across the Property adjacent to the 1975
easement and pipeline. The total land covered by the
second easement, which courts treat as severed land,
is 2.766 acres. Cannizzo, 267 S.W.2d at 812 (stating
that in partial takings, land taken is “considered as

App. 9
severed land”). Combined, the two adjacent easements
would span 110 feet as they transverse the Property.
Morello was not opposed to a second pipeline on
the Property, but he did resist having a second pipeline
easement. He requested, as an alternative plan, that
the second pipeline be laid within the original 60-foot
easement. He wanted the second pipeline within the
original, 60-feet easement because he believed doing so
would cause the second pipeline to be subject to the favorable terms of the 1975 easement. If the second pipeline had its own easement, he would, in his view,
effectively lose access to the 1975 easement’s favorable
terms, and that would negatively impact his development plans. But there is no evidence Morello ever communicated his reasoning to Seaway during the
negotiations. Neither his affidavit nor Seaway’s communication notes indicate that Morello explained to
Seaway before the taking why he wanted the second
pipeline to be laid within the original easement. Likewise, there is no evidence that Morello ever told Seaway that he was contemplating developing the
Property by building railroad tracks and roads across
the Property for a rail-served warehouse distribution
center.
Seaway rejected Morello’s request to use a single
easement for both pipelines, with two right-of-way
agents telling Morello that the existing easement could
not be used for the second pipeline for “safety reasons”
and that a second, 50-foot easement was needed. One
of the agents, Blake Box, told Morello that he nonetheless would convey Morello’s request to his supervisor.

App. 10
Morello never received a response. Morello states that
he felt “pushed” to make a monetary counter-offer instead of negotiating the placement of the pipeline.
Around the same time, Seaway attempted to arrange a lunch between Morello and a Seaway engineer,
but Morello refused to attend. Morello explains his refusal, saying that Seaway “had already made up their
mind that they were going to create a new easement,”
and lunch would not change their “foregone conclusion.”
Seaway contends that negotiations for an agreed
easement faltered because Morello failed to engage in
the process. Seaway then sent Morello its “final offer to
acquire easements,” which Morello did not accept.
Condemnation proceedings and post-condemnation litigation
After making its final offer, Seaway began condemnation proceedings. The trial court appointed Special
Commissioners to determine appropriate compensation. Morello did not appear for the hearing. As a result, at the hearing, the commissioners had before
them only Seaway’s appraisal, which included damages for the severed land but did not include any damages for loss of market value of the remainder. The
resulting commissioners’ award compensated for the
actual taking but not for losses to the remainder. Seaway deposited the amounts awarded in the court’s registry and took possession of its easements in August
2013, establishing the date of the taking. City of

App. 11
Harlingen v. Estate of Sharboneau, 48 S.W.3d 177, 186
(Tex. 2001) (Baker, J., concurring).
Morello filed objections to the Special Commissioners’ findings with the trial court. See TEX. PROP.
CODE § 21.018(a). He argued that Seaway and its
agents had acted arbitrarily and in bad faith, among
other assertions. Morello also filed motions for injunctive relief and motions to dismiss, which were denied.
Morello then filed a plea to the jurisdiction, arguing that Seaway acted arbitrarily and in bad faith and
that the award did not adequately compensate him
for the taking. Seaway filed a motion for partial summary judgment, seeking an order decreeing that it has
the right to condemn the easements and dismissing
Morello’s affirmative defenses. Morello asserted in his
response that Seaway’s Consent impermissibly authorized the taking out of “convenience,” instead of the statutorily required necessity. Cf. TEX. NAT. RES. CODE
§ 111.019(a)-(b) (providing that common carriers may
condemn easements “necessary for the construction,
maintenance, or operation of the common carrier pipeline”).
Morello also argued that Seaway demonstrated
bad faith while negotiating for the easement. According to Morello, Seaway used the condemnation process
as a pretext to avoid its potentially costly contractual
obligations to him under the 1975 easement agreement. Morello reads the 1975 pipeline easement as
giving him an unfettered right to have Seaway move
the pre-existing pipeline if his development plans

App. 12
require route adjustments. He contends that a second
easement for a parallel pipeline that does not have as
favorable of terms would, in effect, negate the advantages of the first easement: there would never be a
scenario in which Morello could legitimately demand
that the 1975 pipeline be rerouted if he did not have a
contractual right to also have the parallel 2014 pipeline similarly rerouted.5 Morello has not identified any
Seaway documents that evidence this alleged pretext
motivation nor any pre-taking documents that discuss
the cost of compliance with the 1975 easement agreement.6
Seaway subsequently moved to exclude Morello’s
experts on the grounds that they were not timely designated and their opinions were irrelevant, speculative, and unreliable. Morello filed a response, seeking
leave to late-designate experts for good cause. Thereafter, the trial court struck some of Morello’s designated
experts and limited the testimony of others.
Seaway filed an amended motion for partial summary judgment, seeking a ruling that it properly declared a necessity for the taking, that Morello’s
5

The 1975 contract is silent regarding future pipelines
placed in separate easements. So, if a second pipeline were installed that did not have similar contractual rights favoring Morello, and Morello began to develop the Property, he would retain
the contractual ability to have input into adjusting the location of
the first pipeline (under the 1975 agreement) but would have no
ability to have input into adjusting the location of the second pipeline.
6
The parties conducted extensive discovery, including fifteen depositions and the production of over 200,000 documents.

App. 13
affirmative defenses to the condemnation fail as a matter of law, and that Seaway has the power of eminent
domain to condemn the specified portion of the Property. Seaway’s motion argued, in the alternative, that
Morello has no evidence that Seaway’s condemnation
is in bad faith or arbitrary. Morello filed a response and
also filed an amended plea to the jurisdiction.
The trial court granted Seaway’s motion for partial summary judgment and motion for no-evidence
partial summary judgment and denied Morello’s
amended plea to the jurisdiction. Seaway moved for final judgment, arguing that the only remaining issue
was the value of the portion of the Property taken and
stating its consent to entry of judgment in the amount
of $88,227 for that taking.
Final judgment was entered awarding that
amount, and Morello appealed.
Relevant Condemnation Law
The Texas Constitution provides that “[n]o person’s property shall be taken, damaged, or destroyed
for or applied to public use without adequate compensation being made, unless by consent of such person.”
TEX. CONST. art. I, § 17. Thus, private land may be condemned only for “public use” with payment of “adequate compensation.” Whittington v. City of Austin, 174
S.W.3d 889, 896 (Tex. App.—Austin 2005, pet. denied)
(“Whittington I”). The power of eminent domain must
be conferred by the Legislature, either expressly or by
necessary implication. Anderson v. Teco Pipeline Co.,

App. 14
985 S.W.2d 559, 564 (Tex. App.—San Antonio 1998, pet.
denied). Statutes granting the power of eminent domain are strictly construed in favor of the landowner
and against the condemnor. Id.
The statute that grants the power of eminent domain to common carriers is Section 111.019 of the Natural Resources Code, which provides, in pertinent part,
(a) Common carriers have the right and power of
eminent domain.
(b) In the exercise of the power of eminent domain granted under the provisions of Subsection (a) of this section, a common carrier may
enter on and condemn the land, rights-of-way,
easements, and property of any person or
corporation necessary for the construction,
maintenance, or operation of the common carrier pipeline.
TEX. NAT. RES. CODE § 111.019(a)-(b) (emphasis
added).
“The condemnor’s discretion to determine what
and how much land to condemn for its purposes—that
is, to determine public necessity—is nearly absolute.”
Malcomson Rd. Util. Dist. v. Newsom, 171 S.W.3d 257,
268 (Tex. App.—Houston [1st Dist.] 2005, pet. denied).
And a condemnor’s determination that a pipeline or
other large-scale project is globally necessary and
serves a public purpose suffices without the condemnor
having to make granular determinations of necessity
as to each tract of affected land. Anderson, 985 S.W.2d
at 566 (“Teco was not required to produce a resolution

App. 15
finding that the Andersons’ particular tract of land was
necessary for the project.”); Houston Lighting & Power
Co. v. Fisher, 559 S.W.2d 682, 685-86 (Tex. Civ. App.—
Houston [14th Dist.] 1977, writ ref ’d n.r.e.) (holding
that board’s approval of project for “Cedar Bayou to
Webster right-of-way” was sufficient to demonstrate
that specific tract of land along route also was necessary); cf. TEX. GOV’T CODE § 2206.053(b) (providing that
single “resolution . . . may be adopted for all units of
property to be condemned”).
One rationale for the high degree of discretion afforded condemnors in their necessity determinations is
that, if less deference were given and each piece of a
project were scrutinized for necessity, a finding that
one small piece of a larger-scale project was not necessary could derail an entire project. Wagoner v. City of
Arlington, 345 S.W.2d 759, 763 (Tex. Civ. App.—Fort
Worth 1961, writ ref ’d n.r.e.). In other words, one factfinder might conclude that the land in question was
not necessary for the project, resulting in the destruction “of an entire project . . . because of the inability to
obtain the small part of land which [was] made the
subject of the particular condemnation suit.” Id.; see
City of Austin v. Whittington, 384 S.W.3d 766, 778 n.7
(Tex. 2012) (“Whittington III”) (stating that courts
should not second guess advisability of takings because tract-specific challenges to large-scale projects
might result in takings being upheld in one county and
invalidated in another, making straight-line courses
difficult to secure); see also Newsom, 171 S.W.3d at 269

App. 16
(discussing Wagoner and rationale for deference to necessity determination).
The condemnor’s determination of necessity is
presumptively correct and treated as conclusive, unless the landowner establishes an affirmative defense
such as arbitrariness or bad faith. See FKM P’ship, Ltd.
v. Bd. of Regents of Univ. of Houston Sys., 255 S.W.3d
619, 629 (Tex. 2008); Hous. Auth. of City of Dallas v.
Higginbotham, 135 Tex. 158, 143 S.W.2d 79, 88 (1940);
Anderson, 985 S.W.2d at 565. The landowner has the
burden of proof for its affirmative defense. Clear Lake
City Water Auth. v. Clear Lake Country Club, 340
S.W.3d 27, 35 (Tex. App.—Houston [1st Dist.] 2011, no
pet.); Newsom, 171 S.W.3d at 269.
The landowner establishes its affirmative defense
“by negating ‘any reasonable basis’ for determining
what and how much land to condemn.” Clear Lake City
Water, 340 S.W.3d at 35 (quoting Newsom, 171 S.W.3d
at 269); compare Newsom, 171 S.W.3d at 270 (stating
that landowner could negate any reasonable basis by
showing that condemnor “had completely abdicated its
responsibilities in determining whether, what, or how
much land to condemn” when it turned that decision
over to interested party) with Ludewig v. Houston Pipeline Co., 773 S.W.2d 610, 614-15 (Tex. App.—Corpus
Christi 1989, writ denied) (holding that landowners’
evidence that condemnor could have adopted different
plans and taken less of their land was no evidence of
arbitrary behavior if condemnor reached reasoned decision to do otherwise).

App. 17
Whether the condemnor’s determination of necessity was arbitrary or in bad faith generally is a question of law for the court. Whittington III, 384 S.W.3d at
778 & n.7. “The trial court should only submit the issue
to a jury if the underlying facts are in dispute.” Id. at
778. Thus, summary judgment against a landowner on
the landowner’s affirmative defense that the condemnor acted arbitrarily or in bad faith with regard to its
necessity determination may not be granted if the
landowner proffers evidence creating a factual dispute
regarding the necessity determination. See id.
The parties have analyzed the issue of Morello’s
affirmative defenses, both at the trial court and on appeal, under the assumption that bad faith with regard
to single-tract negotiations impacts necessity only as
to that single tract of land. But, because a necessity
determination for a large-scale project provides the necessity determination for all constituent tracts, it is not
clear what the effect would be if there were a finding
of tract-specific bad faith within a large-scale project.7
7

We note that a condemnor’s statewide necessity determination logically may be treated as a necessity determination for each
constituent tract, making an examination of a particular tract for
the landowner’s affirmative defense not inconsistent with a rule
that project-wide necessity determinations suffice. But, if a tractspecific necessity determination is not required as part of a condemnor’s affirmative proof and is not to be set aside unless it is
arbitrary or in bad faith, the effect of tract-specific bad faith is
unclear. We have located no case law holding that tract-specific
bad faith sets aside necessity only as to the specific tract or that
it sets aside an entire project, but we are mindful that both parties take the position that necessity was a jurisdictional requirement for Seaway to condemn any of the lands used to construct

App. 18
We need not determine whether a landowner’s arbitrariness defense should be examined in the context of
a specific tract’s necessity or project-wide necessity
given our conclusion, discussed below, that there is no
evidence to support Morello’s affirmative defenses.
Necessity Determination
Seaway’s motion for partial summary judgment
and Morello’s plea to the jurisdiction both raised the
issue of Seaway’s necessity determination and the conclusiveness of that determination. Morello seeks a reversal of the trial court’s ruling on both motions and
argues that the proper resolution is to sustain his plea
to the jurisdiction, with the result that Seaway did not
have the power of eminent domain to take its easement or to install, and now operate, the second pipeline.8 We address the trial court’s ruling on those two
motions together.
this second pipeline. See note 1 supra; see also Whittington I, 174
S.W.3d at 903 n.11; Anderson v. Teco Pipeline Co., 985 S.W.2d
559, 566 n.5 (Tex. App.—San Antonio 1998, writ denied).
8
Morello argued in his response to Seaway’s amended motion to exclude designated experts Sikes and Carter that Seaway
acted arbitrarily and “such conduct negates” Seaway’s “right to
take at all,” meaning that the pipeline could be forced to shut
down until Seaway properly condemns an easement. At oral argument, Morello asserted that he would not seek to shut down the
pipeline but instead to have the second pipeline moved into the
area covered by the 1975 agreement and subject to that agreement’s terms. He concedes, however, that he believes he would
have the legal right to require the state-long pipeline to be shut
down while awaiting a compliant necessity determination and
pipeline installation.

App. 19
A. Standard of review
Morello’s plea to the jurisdiction and Seaway’s
summary-judgment motion were effectively cross-dispositive motions and are reviewable under the de novo
standard that applies to cross-motions for summary
judgment; therefore, we will review both motions de
novo and render the judgment that the trial court
should have rendered. See Harris Cty. Hosp. Dist. v.
Textac Partners I, 257 S.W.3d 303, 311-15 & n.11 (Tex.
App.—Houston [14th Dist.] 2008, no pet.).
B. The Management Consent included a necessity determination
Morello’s first argument is that the June 2012
Management Consent did not effectively declare a public necessity to invoke the right of eminent domain.
Seaway relies exclusively on its Consent to establish
that it made a necessity determination.
Morello focuses on a particular Consent resolution
that authorizes Seaway “to file or cause to be filed . . .
proceedings in eminent domain for the acquisition of
such rights and interests in the land that may be necessary, convenient, or required for the purpose of . . .
constructing, installing, . . . [or] operating . . . the common carrier Pipeline. . . .” (Emphasis added.) Morello
argues that the Consent is fatally flawed in that it permits condemnation of property for the impermissible
reason of mere convenience.

App. 20
The Consent is a six-page document. Morello focuses on a single phrase within that larger document.
Yet we are not permitted to read excerpts of legal documents in isolation to determine the drafter’s intent;
instead, we are to read them in their entirety, allowing
each portion to provide context and guidance for the
whole. See Hysaw v. Dawkins, 483 S.W.3d 1, 13 (Tex.
2016). The remainder of the Consent contains repeated
declarations that Seaway determined a necessity existed and does not support a conclusion that Seaway
relied on mere convenience as a basis for condemnation.
1.

Recital paragraph

The Consent’s recital paragraph refers to public
necessity three times. First, the recital states that Seaway “hereby determines that there is a public need and
necessity to have oil . . . transported by pipelines
through [various listed] Counties in the State of Texas
. . . as a part of its common carrier System.” It continues by stating that Seaway “finds and hereby affirms
that the public convenience and necessity require the
location, construction, operation and maintenance of
said common carrier Pipeline . . . for the receipt, transportation . . . and processing of oil . . . through [various
listed] Counties in the State of Texas.” Finally, it states
that the location will be “as public necessity and engineering feasibility may require,” thus adding a limitation to the location of the pipeline to that which is both
necessary and feasible. (Emphasis added.)

App. 21
Morello argues that recital paragraphs cannot be
considered to determine a legal document’s meaning.
But that rule has exceptions. While recitals are generally not considered part of a legal document, they may
be considered if the drafter intended them to be. All
Metals Fabricating, Inc. v. Ramer Concrete, Inc., 338
S.W.3d 557, 561 (Tex. App.—El Paso 2009, no pet.). The
Consent directly resolves that “all findings . . . as hereinabove recited be and the same are hereby approved,
adopted, and affirmed.” We therefore will consider the
recital paragraph, which include three statements that
Seaway determined a public necessity, in determining
the meaning of the agreement as a whole.9
2.

Resolution paragraphs

In addition to the recital, the Consent’s first two
resolution paragraphs state that Seaway “hereby determines that in order to provide efficient common carrier service to the public . . . public convenience and
9

Morello argues alternatively that the use of the conjunctive
“and” in the recital—providing that Seaway found that “public
convenience and necessity” required the pipeline—adds ambiguity that should be interpreted against the document’s drafter. We
disagree. To the extent Seaway determined that the pipeline is
both necessary and convenient, the secondary finding is superfluous. See Ex parte Williams, 866 S.W.2d 751, 754 (Tex. App.—Houston [1st Dist.] 1993, no writ) (explaining that use of conjunctive
“and” when listing two items means both have occurred and cannot be read to mean only one occurred); see also ANTONIN SCALIA
& BRYAN A. GARNER, READING LAW: THE INTERPRETATION OF LEGAL
TEXTS 116 (2012) (discussing conjunctive/disjunctive canon of interpretation). The conjunction “and” does not inject ambiguity
into the Consent.

App. 22
necessity requires the location, construction, operation
and maintenance of the common carrier Pipeline and
appurtenant facilities generally along” the statewide
route and that Seaway’s agents are authorized to negotiate with “all persons or parties having or claiming
an interest in the lands necessary for the location, construction, operation and maintenance of the common
carrier Pipeline. . . .” (Emphasis added.)
The resolution paragraphs further authorize Seaway to exercise “the power of eminent domain for the
acquisition of the necessary easement or easements . . .
for the construction of the common carrier Pipeline”
and to use discretion in “routing of all parts of said
common carrier Pipeline . . . and in causing said eminent domain proceedings to be filed.” (Emphasis
added.)
3.

Consent, when read as a whole, contains
necessity determination

Reading the Consent as a whole, and giving consideration to all of its terms, we conclude that Seaway
expressed a determination of necessity and did not
purport to authorize condemnation out of mere convenience. See Circle X Land & Cattle Co., Ltd. v. Mumford
Indep. Sch. Dist., 325 S.W.3d 859, 865-67 (Tex. App.—
Houston [14th Dist.] 2010, pet. denied) (concluding, on
review of all evidence, that condemnor made necessity
determination even if minutes did not expressly state
finding); cf. Whittington I, 174 S.W.3d at 904-05 (holding that “magic words” of necessity are not needed and

App. 23
that determination of necessity can be established
through evidence of affirmative acts manifesting determination). We overrule Morello’s first issue.
Arbitrariness or Bad Faith
Morello next contends that the trial court erred in
ruling against him on his arbitrariness and bad faith
affirmative defenses. First, he argues that he presented evidence that Seaway arbitrarily delegated its
condemnation authority and, in doing so, abused its
discretion. Second, he argues that he established that
Seaway failed to supervise land-choice decisions and,
thus, acted arbitrarily. Third, he argues that documentary and testimonial evidence established disparate
treatment of landowners by Seaway and, with it, bad
faith, because Seaway willingly negotiated with other
landowners while ignoring his tract-specific requests.
He argues that he established his affirmative defenses
as a matter of law or, alternatively, that his summaryjudgment evidence raised a fact issue to preclude summary judgment in Seaway’s favor.
A. Applicable law and standard of review
A condemnor’s determination of necessity is
treated as conclusive unless the landowner establishes
an affirmative defense such as bad faith or arbitrariness. See FKM P’ship, 255 S.W.3d at 629 & n.9. The
landowner establishes its affirmative defenses “by negating ‘any reasonable basis’ for determining what and
how much land to condemn.” Clear Lake City Water,

App. 24
340 S.W.3d at 35 (quoting Newsom, 171 S.W.3d at 269);
see Circle X Land & Cattle Co., 325 S.W.3d at 864.
Whether the necessity determination was in bad faith
or arbitrary is a question of law for the court, unless
there is a factual dispute regarding the necessity determination. See Whittington III, 384 S.W.3d at 777-78.
Such a factual dispute will preclude summary-judgment against a landowner on his affirmative defenses.
See Newsom, 171 S.W.3d at 273-76.
B. No evidence of arbitrariness through delegation of eminent domain power in violation of Newsom
Morello relies on Newsom to argue that Seaway’s
delegation of decision-making authority abused its discretion, amounted to arbitrary action, and, as a result,
negated the conclusiveness of Seaway’s necessity determination. Newsom is distinguishable on its facts.
In Newsom, two separate subdivisions were being
developed near Frank Newsom’s land. Id. at 261. The
Harris County Flood Control District required each development to include drainage management features.
One developer was required to expand an existing
drainage ditch. The other developer, led by John Santasiero, was required to build a retention pond. Both
developers attempted to purchase portions of Newsom’s neighboring land to build the necessary drainage
management features, but Newsom rejected their offers. Id. Both developers asked the District to use its
eminent domain power to condemn separate portions

App. 25
of Newsom’s property for the developers’ benefit. The
District did so, the land was condemned, and Newsom
sued to set aside the takings.
Newsom presented evidence that the District had
not undertaken any effort to determine an appropriate
location for the required drainage improvements. Instead of analyzing the issue itself, the District relied
on Santasiero’s representations on the matter. See id.
at 272-73. There was no evidence that the District did
anything to confirm Santasiero’s statement that Newson’s land was the appropriate location for the improvements or to address the conflict between
Santasiero’s and Newsom’s positions related to the dispute. See id. at 272.
Newsom attempted to establish his arbitrariness
affirmative defense by showing that the condemnor
had “completely abdicated its responsibilities in determining whether, what, or how much land to condemn.”
Id. at 270. We concluded that Newsom raised a fact issue on the defense by presenting evidence that the District allowed Santasiero to identify Newsom’s land as
the appropriate target for condemnation—a decision
that directly advanced Santasiero’s financial interests
at Newsom’s expense—without taking steps to verify
that Newsom’s land was the appropriate location for
the needed drainage features. See id. at 275-76.
The Newsom facts are wholly distinguishable from
those surrounding Seaway’s pipeline. In Newsom,
there were several landowners that owned properties
closely situated to where drainage was needed, yet the

App. 26
condemnor made no effort to determine if one property
was better suited than the others for constructing the
necessary drainage pond. See id. at 272-73. Instead,
the condemnor followed one landowner’s wishes and,
in doing so, directly and negatively affected an adjacent landowner’s interests. See id. The delegation of
the condemnation decision-making authority to a
party with a pecuniary interest in selecting his neighbor’s land as the target of condemnation was the controlling aspect of the Newsom decision; it is not present
here.
There is no evidence that Seaway turned routing
decisions over to individuals with competing interests.
Morello does not point to evidence that Seaway let
those with a conflict of interest decide which property
to condemn. Thus, Newsom is factually distinguishable.10 See Whittington III, 384 S.W.3d at 783-84 (similarly distinguishing Newsom). Morello presented no
evidence of arbitrariness through an impermissible
delegation of its power of eminent domain.
10

Newsom is further distinguishable based on the type of
feature being constructed under the power of eminent domain and
the logistical realities of planning for such a project. The Newsom
developers were constructing discrete land features that would fit
within a single tract of land. See Malcomson Rd. Util. Dist. v.
Newsom, 171 S.W.3d 257, 261 (Tex. App.—Houston [1st Dist.]
2005, pet. denied). Seaway was endeavoring to build a continuous
pipeline that would span the length of the state and cross thousands of properties. Seaway’s Consent contained an attachment
that illustrated the pathway Seaway had determined was necessary, which generally tracked the path of Seaway’s existing pipeline. The constraints inherent in planning a route for hundreds of
miles of connected pipes are not analogous to Newsom’s standalone pond on a single property.

App. 27
C. No evidence of arbitrariness through failure
to supervise agents’ land-choice decisions
Morello’s next arbitrariness argument is that Seaway failed to adequately supervise its contractors’ land
choices. Morello argues that allowing contractors to
make unsupervised land choices is evidence that Seaway did not find particular lands to be necessary for its
project. He points to statements by Seaway’s Chairman that the Management Committee “never made a
determination of what land was necessary” and that
the Committee merely “gave [its contractors] a general
route” and left it to them “to go out there and do the
job.”
But this argument presumes Seaway had an obligation to make a necessity determination as to each
parcel versus an overarching determination that the
general route was necessary. Granular necessity determinations are not required. See Anderson, 985 S.W.2d
at 566 (holding that resolution determining necessity
for whole pipeline is sufficient and that resolution determining necessity of individual tracts is not required); Fisher, 559 S.W.2d at 686 (holding that board’s
approval of entire project as necessary was sufficient
to demonstrate that specific tract of land along route
also was necessary). Evidence that a condemnor failed
to determine that each constituent parcel of a statelong pipeline project was necessary is no evidence of
arbitrariness. See Anderson, 985 S.W.2d at 566. Thus,
we conclude that Morello presented no evidence of
arbitrariness through lack of supervision of land
choices.

App. 28
D. No evidence of arbitrariness through disparate negotiations
Morello’s final arbitrariness argument goes to the
heart of his dispute with Seaway, which, according to
Morello, “centers on Seaway’s refusal to consider repeated requests to make adjustments that would preserve the integrity and future development of the
Property.” He argues that Seaway failed to consider the
specific facts of his land in deciding how large of an
easement was necessary and whether to approve his
requested concessions, such as installing the pipeline
at a greater depth to avoid interference with future rail
access and placing the second pipeline within the first
easement. Morello contrasts his treatment with evidence that Seaway negotiated with other landowners
and made concessions to their easement-placement requests. He argues that this disparate treatment is evidence of Seaway’s arbitrariness.
Whether Seaway acted arbitrarily depends on
whether it had a reasoned basis for its decision of what
and how much land to condemn. Clear Lake City Water,
340 S.W.3d at 35; see Newsom, 171 S.W.3d at 269; Circle X Land & Cattle Co., 325 S.W.3d at 864; see also
FKM P’ship, 255 S.W.3d at 629. Therefore, we begin our
analysis of Morello’s disparate-treatment argument by
considering the reasoned basis asserted by Seaway for
its condemnation decisions.

App. 29
1.

Seaway cites safety as its reasoned basis

Seaway management testified that, when Seaway
offered to purchase Morello’s land—which is the relevant time for determining whether Seaway acted arbitrarily11—there were safety concerns inherent in
locating operational pipelines less than 50 feet from
one another. John Macon, a mechanical engineer with
management responsibility over the Seaway project
and discretion to determine the pipeline route, testified
that a 50-foot easement is the “standard” that Seaway
“always starts with” when determining the amount of
land to condemn.12 He further testified that “part of ”
Seaway’s reasoning is to avoid “work anywhere near
the existing live line just for pure safety-related issues.
We don’t want these big tractors on top of it, so we slid
the easement over to the side and we do all of our work
off the easement and existing line.”
In response to Morello’s contention that the second
pipeline could have been laid within the original
11

Cf. Ludewig v. Houston Pipeline Co., 773 S.W.2d 610, 61415 (Tex. App.—Corpus Christi 1989, writ denied) (holding that
condemnor did not act arbitrarily by considering future possible
pipeline-related needs when determining necessity, even those
properly characterized as “remote” at time of condemnation).
12
This 50-foot standard has historical precedent. See TEX.
NAT. RES. CODE § 111.0194 (a), (d) (providing that pipeline “is presumed to create an easement . . . that extends only a width of 50
feet as to each pipeline laid under the grant or judgment in eminent domain prior to January 1, 1994” and that this presumption
“shall apply separately as to each pipeline under a grant or judgment which allows more than one pipeline on the subservient estate”). In his brief, Morello concedes that “a fifty-foot easement is
standard.”

App. 30
easement, Macon testified, “It’s not as good of an idea
as doing it this way [with separate easements]. It is
more difficult to lay it in the same easement. It does
have inherent risk with it. The closer you are to that
pipeline the less safe it is; that’s just the facts of the
situation. It will be slower and it will be more expensive.” Seaway argues that this safety concern provided
a reasoned basis for its decision and disproved arbitrariness as a matter of law, entitling Seaway to summary judgment on Morello’s affirmative defenses.
2.

Morello argues other evidence negates
safety as a deciding factor for rejecting
his specific requests

Morello identifies other summary-judgment evidence that he contends raises a fact issue, at a minimum, on whether the safety issue actually influenced
Seaway’s decision-making. He points to testimony
from Macon suggesting that Seaway did not consider
whether an exception could be safely granted for the
Property. And he notes that an internal Seaway standard establishes that, while a 50-foot easement is standard for safe pipeline installation, a lesser distance—as
small as 10 feet—may be appropriate for a second line
within the same easement.13 According to Morello, this
is some evidence that Seaway had discretion to

13

The standard appears to address a second pipeline built
simultaneously with the first pipeline and as part of one easement. It does not expressly discuss a second pipeline built at a
later time.

App. 31
establish a narrower easement and that it could have
done so safely.
Morello also points to testimony from Seaway project managers indicating that they never considered
Morello’s specific requests, which means that they
could not have made a reasoned decision to reject
them. Morello points further to testimony from Jan
Paradis, Seaway’s right-of-way supervisor. Paradis testified that she told management of Morello’s request
that the second pipeline be placed within the first pipeline’s easement and that management told her to
simply buy off the surveyor’s plat, suggesting that Morello’s specific concerns and requests were not considered.
Morello contrasts his treatment by Seaway with
evidence that Seaway agreed to at least nine other
landowners’ requests that it lay its second pipeline in
a narrower easement or, in some cases, within the original easement and that Seaway did not rely on safety
concerns to reject those landowners’ requests. With one
landowner, Seaway agreed to an easement only 25 feet
wide. With another landowner, Seaway agreed to lower
the existing 1975 pipeline from 36 inches to 60 inches
and to lay the new pipeline at a 60-inch depth to accommodate future use of the property. With two other
landowners, Seaway agreed to a five-foot nonexclusive
easement. There is evidence that Seaway made similar
concessions with three other landowners along the
pipeline’s path.

App. 32
Morello also points to an internal Seaway memo
from Tim Dyk to Rick Blake—one of Dyk’s supervisors—regarding the size of easement to be obtained on
yet another landowner’s property. The memo acknowledged that from “the beginning of the project we have
agreed to a 5’ permanent” right of way across that particular landowner’s property. The memo then stated
that Seaway needed to alter its position and insist on
a wider, 50-foot right of way on that land because “we
were recently at a hearing in the same courts for the
Morello tract testifying that we require a 50 [foot]
wide” right of way.
But Morello does not attempt to show that the conditions surrounding any of these other tracts were reasonably similar to those for his land. He does not
present any details concerning the safety concerns and
issues involved in the other properties, their existing
and proposed future use or development, the extent to
which those landowners had taken steps already to develop their properties, or whether the concessions occurred under reasonably similar circumstances. We do
not know if Morello’s requested concessions are comparable to the other landowners’ requested concessions.14
14

For example, Morello has directed us to evidence that Seaway agreed to place its second pipeline within the original easement for Foster Farms Corridor, LLC, which is a concession
Morello sought but was denied. But Morello fails to address how
that concession fit within the larger negotiated deal between Seaway and Foster Farms. Perhaps the negotiated price was reduced
in exchange for the concession. Perhaps it was in exchange for a
different concession by Foster Farms. To that possibility, we note

App. 33
3.

No evidence that Seaway acted arbitrarily or with bad faith

Without proof that concessions granted other
landowners were comparable to those denied Morello
or that the conditions and safety issues for the other
properties were reasonably similar to those for the
Property, Seaway’s agreements with other landowners
is no evidence that it acted arbitrarily in rejecting Morello’s requests.
Moreover, Morello’s argument fails to take into account that there is no evidence he ever told Seaway
why he wanted the second pipeline laid within the first
easement. By not explaining the reason he wanted a
routing path that would take longer and cost more, Morello lost an opportunity to demonstrate at the time
that his request was a financially advisable, fact-based
routing choice comparable to other landowners’ circumstances and requests.
Morello next contends that, regardless of how the
properties or requests compared, Seaway pre-determined that it would reject his request because its true
intent was to insulate itself from contractual obligations arising out of the 1975 easement. According to
Morello, if a new easement were created for a second
pipeline, the terms of that easement would have
that the agreement includes a provision that allows Seaway to
install a third pipeline without paying additional easement fees.
Without a broader understanding of the Foster Farms negotiations, or those for other landowners, the comparability of their
requests and Seaway’s concessions are unknown.

App. 34
effectively eliminated Morello’s ability to enforce his
pipeline placement preferences under the 1975 easement agreement. Morello’s bad-motive argument is
that Seaway was insulating itself from costly future
pipeline-related expenses by placing another pipeline
along the same route that did not have contractual relocation rights. Morello contends that Seaway’s refusal
to negotiate the easement width and pipeline placement with regard to the second pipeline, in this context, provides its own evidence of Seaway’s bad faith.
But Morello did not present any direct evidence of
such a motive. Instead, Morello argues that he established, or at least presented a fact issue, regarding this
bad motive through circumstantial evidence and expert testimony.15
We reject Morello’s ill-motives argument for two
factual reasons and three legal reasons. First, had Seaway placed the second pipeline in the first easement,
as Morello wanted, the 1975 agreement still only
would have applied to the first pipeline. The 1975
agreement did not obligate Seaway to extend its terms
to a second pipeline built on the Property. Second, Morello had a right to seek damages for the remainder.
Thus, if he could have demonstrated that a rail-served
industrial distribution center was a non-speculative
15

In his fourth issue, Morello challenges the trial court’s exclusion of his expert, Dale Morris, designated to testify that Seaway’s motive was to avoid the costs that would be incurred to
comply with the terms of the 1975 easement. We discuss his exclusion below and conclude that the trial court did not abuse its
discretion.

App. 35
use and was the highest and best use for the Property,
he could have recovered mitigation costs and required
Seaway to incur the costs that he claims Seaway was
trying to save.
There are significant legal grounds for rejecting
Morello’s bad-faith argument as well. First, even if
Seaway was motivated by a desire to save money, that
does not dictate that Seaway had the ill motives Morello assigns to it. See Ludewig, 773 S.W.2d at 614 (condemnor’s decision is not arbitrary when condemnor
chooses “least expensive option” or “most economically
feasible path for its pipeline”). Based on this record,
Morello’s improper motive assertion is pure speculation.
Second, Seaway’s negotiation obligations are set
forth in Section 21.0113 of the Property Code, which
requires condemnors to make bona fide offers to voluntarily purchase land that may be subject to condemnation. See TEX. PROP. CODE § 21.0113. Section 21.0113
requires compliance with a statutorily-mandated
checklist for a bona fide offer; it does not also require
good-faith negotiations.16 Cf. Hubenak v. San Jacinto
Gas Transmission Co., 141 S.W.3d 172, 185-87 (Tex.
16

Morello also argues a non-statutory source for a good-faith
requirement. He asserts that Seaway’s internal Pipeline Design
for Onshore Pipeline Standards required it to negotiate with landowners “to select a path that will minimize the potential for future
land use conflict and potential damage to the line, and at the same
time keep construction costs to a minimum.” But failure to adhere
to an internal policy manual, to the extent Morello’s evidence suggests Seaway failed in this regard, does not show that Seaway
violated a legal obligation to Morello.

App. 36
2004) (in case decided before Section 21.0113’s “bona
fide offer” provision was enacted, holding that statutory requirement that condemnor demonstrate it was
“unable to agree” with landowner on damages for voluntary sale of property did not include requirement of
“good faith” negotiations). Morello does not dispute
that Seaway complied with the Section 21.0113 checklist.
Third, the relevance of Morello’s summary-judgment evidence addressing whether Seaway was more
willing to consider other landowners’ deviation requests than his own depends on whether Seaway had
a reasoned basis for its decision on what and how much
land to condemn. See Whittington III, 384 S.W.3d at
783; Newsom, 171 S.W.3d at 269; Ludewig, 773 S.W.2d
at 614-15. Seaway’s decision need not be the only feasible option or the option most advantageous to the
landowner. See Ludewig, 773 S.W.2d at 614. Condemnors are permitted to reject viable alternative routing
choices. See id. Evidence that there was a different
pipeline route on the Property that was feasible and
would have benefitted Morello does not establish arbitrariness in Seaway’s routing decisions. See id. “Where
there is room for two opinions, an action cannot be
deemed arbitrary when it is exercised honestly and
upon due consideration, regardless of how strongly one
believes an erroneous conclusion was reached.” Id.
Our focus must be on whether Seaway considered
safety in determining that the state-long pipeline
should generally not be built within 50 feet of an existing pipeline. It is not whether it was actually safer, in

App. 37
the eyes of Morello or his experts,17 or whether an exception could have been granted for Morello.18
Seaway presented a reasoned basis for its pipeline-placement decision: it is generally safer to place
pipelines 50 feet apart. Because it is safer and more
economical, Seaway adopted a default approach of using separate, 50-foot easements for its parallel pipelines. That Seaway negotiated other terms with some
landowners and agreed to commit itself to constructing
the pipeline within a smaller easement on a few tracts
of land—an agreement that might well reflect a lower
17

In his fourth issue, Morello challenges the trial court’s exclusion of the opinion of his expert, Richard Kuprewics, that the
Seaway pipeline could have been placed within the 1975 easement safely. We conclude below that the trial court did not abuse
its discretion with regard to that exclusion.
18
Cf. Whittington III, 384 S.W.3d at 781 (stating that “question is whether the condemnor actually considered the taking necessary for the public use—not whether the court believes the
taking was actually necessary”); id. at 783 (decision on scope of
condemnation “does not require the chosen course to be more feasible or better than the alternative,” but rather, “forbids decisions
not made according to reason or judgment”); Ludewig, 773 S.W.2d
at 614 (condemnor’s decision is not arbitrary when condemnor
chooses “least expensive option” or “most economically feasible
path for its pipeline”); id. (existence of feasible alternatives to condemnor’s plan “does not constitute proof of an arbitrary and capricious action”); id. at 615 (condemnation of larger easement to
address “remote” possibility of additional need constitutes legitimate, reasoned basis for decision); Krenek v. S. Tex. Elec. Coop.,
Inc., 502 S.W.2d 605, 607-08 (Tex. Civ. App.—Corpus Christi
1973, no writ) (arbitrariness is not shown merely because alternative plan might be better, more convenient, or less expensive
than condemnor’s plan or because other experts “would have selected a different route or would have arrived at a different conclusion”).

App. 38
price as part of the negotiation give-and-take or differences between the properties or their safety issues—
does not negate the reasoned basis for Seaway’s decision. See Ludewig, 773 S.W.2d at 614-15 (concluding no
arbitrariness given that condemnor stated reasoned
basis for size of easement—future maintenance
needs—even though there was only “remote” possibility that need would arise in future).
While Morello has presented evidence that placing
the second pipeline within the 1975 easement was a
feasible alternative, he has not presented evidence
that Seaway’s general safety standard was arbitrary or
adopted in bad faith. Morello presented evidence that
Seaway would potentially save future relocation costs
by not subjecting the second pipeline to the terms of
the 1975 easement, but selecting “the most economically feasible path for its pipeline is not evidence of arbitrary or capricious action.” Id. at 614. It is not
sufficient for Morello to demonstrate that Seaway
could have placed the second pipeline in the 1975 easement; Morello must raise a fact issue that it is arbitrary not to do so. Id.
Seaway’s decision not to further engage Morello
after providing him with a bona fide offer also is no evidence of bad faith, even if Seaway did negotiate with
other landowners. Because Morello did not raise a fact
issue on arbitrariness or bad faith, we overrule his second issue.
The absence of evidence of arbitrariness or bad
faith does not insulate Seaway from having to pay

App. 39
appropriate compensation to Morello. We address the
question of appropriate compensation in Morello’s
fourth issue, which challenges the exclusion of experts on which he was relying to establish remainder
damages.
Motion for Costs
In his third issue, Morello contends that the trial
court erred by denying his motion for costs after Seaway amended its condemnation petition to include an
agreement to pay future costs of pipe relocation under
certain conditions. In his motion, Morello argued, on
the one hand, that if Seaway had made a similar concession before it filed its condemnation lawsuit, “it is
doubtful there would have been any need for this condemnation proceeding at all,” and, on the other hand,
that Seaway’s purported concessions in the amended
petition “may not be feasible.”
A. Statutory provision and standard of review
Section 21.019(b) of the Property Code provides a
mechanism for a landowner to recoup fees and expenses incurred defending against a condemnation
suit that is later dismissed by the condemnor:
A court that hears and grants a motion to dismiss a condemnation proceeding . . . shall
make an allowance to the property owner for
reasonable and necessary fees for attorneys,
appraisers, and photographers and for the

App. 40
other expenses incurred by the property
owner to the date of the hearing.
TEX. PROP. CODE § 21.019(b). This provision is designed
“to discourage the commencement and subsequent
abandonment of condemnation proceedings” and “to
compensate the landowner for expenses incurred” during a condemnation proceeding that is later abandoned. City of Wharton v. Stavena, 771 S.W.2d 594, 59596 (Tex. App.—Corpus Christi 1989, writ denied) (emphasis removed). Statutory construction is a question
of law that we review de novo. Colorado Cty. v. Staff,
510 S.W.3d 435, 444 (Tex. 2017).
B. Case law
The Texas Supreme Court has held that Section
21.019(b) does not require a formal motion to dismiss
or an order granting a motion to dismiss for a landowner to be entitled to fees and expenses related to an
abandoned condemnation proceeding. FKM P’ship, 255
S.W.3d at 637. If an amended petition “functionally
abandons the original condemnation claim and asserts
a different claim,” the amendment may invoke the fee
provision without a formal motion to dismiss. Id. at
636. We have located two cases in which an amendment was held to be a functional abandonment of a
condemnation claim to invoke this fee provision.
In FKM Partnership, a university sought to acquire 47,008 square feet of land from a landowner, who
refused to sell. Id. at 624. The condemnor filed a condemnation petition and obtained possession of the

App. 41
land. It later revised its plans, amended its petition to
reduce the size of the condemnation to only 1,260
square feet, and returned the remaining land to the
landowner. Id. at 624-25. The Court held that the
amended petition functionally abandoned the original
condemnation claim and entitled the landowner to recover fees and costs. See id. at 637.
The Court noted that there is “no bright line that
can be drawn” regarding when an amendment reducing the size of a condemnation functionally abandons
the original condemnation claim. Id. It identified three
relevant factors though: (1) how much the condemnation claim has been reduced; (2) “whether the planned
use of the smaller tract sought by amendment differs
significantly from the tract originally sought”; and (3)
“whether the potential future uses of the different
tracts are similar.” Id. Even though the university’s
identified uses for the different-sized tracts were similar, the Court held that the reduction of the taking by
97% was, as a matter of law, a functional abandonment
of the original claim, which entitled the landowner to
recover Section 21.019(b) fees and expenses. Id.
In the second case, a functional abandonment of
the original claim occurred when a condemnor filed
three suits against a landowner to condemn three separate tracts of land, the three suits were consolidated,
and the condemnor amended its petition to delete one
of the three tracts from its suit. State v. Tamminga, 928
S.W.2d 737, 739-40 (Tex. App.—Waco 1996, no writ).
Because the amendment “was not designed to reduce
the amount of land to be taken at a single location or

App. 42
to clarify the interest to be taken,” but, instead, to
abandon a right to condemn a distinct tract of land
while continuing to seek condemnation of the other
two, the amendment was held to be equivalent to a dismissal of a condemnation suit. Id. at 740.
By contrast, fees and expenses were not recoverable in a case in which a condemnor amended its pleadings to alter the “configuration” of the taking and, with
it, property “access,” without changing the size of the
tract to be condemned. State v. Brown, 262 S.W.3d 365,
366-70 (Tex. 2008). The Court held that the amendment was not a functional abandonment equivalent to
a dismissal. Id. at 370.
C. Trial court did not err in concluding Seaway’s amendment was not a functional
abandonment equivalent to a condemnation-claim dismissal
Morello argues that the changes in Seaway’s second amended petition amounted to a “material reduction in property rights taken” and qualified as a
“functional dismissal of the original proceeding. . . .”
Morello describes the amendment as causing a “sea
change in the core compensation facts,” but does not
explain how the pleading changes were equivalent to a
functional abandonment of Seaway’s initial condemnation claim.

App. 43
1.

The concession in Seaway’s second
amended petition

Seaway’s second amended petition granted Morello the right to cross the pipelines for construction of
various structures but prohibited him from endangering, obstructing, injuring, or interfering with access to
the easement. It further provided—for the first time—
that Seaway would, at its “sole cost and expense,” lower
or encase its second pipeline in the future as it deemed
“necessary to permit Morello to construct” roads and
railroad tracks across the easement.
Seaway’s offer to pay these costs was contingent
on Morello first providing it with (1) an agreement
from a railroad company to provide rail service to the
Property, (2) engineering design plans, (3) government
permits and approvals for the planned construction,
and (4) proof of funding for a rail-served industrial distribution center. The second amended petition stated
that Seaway would complete the modification within
180 days after Morello or his successors provided proof
of the four conditions. Seaway describes this as an effort to “accommodate” Morello’s concerns about the
depth of the pipeline placement, not an abandonment
of its claim to condemn a 50-foot easement for its pipeline.

App. 44
2.

Morello’s experts on impact of Seaway’s
concession

Morello designated three experts to testify concerning the significance of the changes to the amended
petition in support of his motion for costs.
a) Mark Sikes
One of Morello’s designated experts, Mark Sikes,
is a real estate appraiser. Before Seaway amended its
petition, Sikes opined that the Property’s highest and
best use (“best use”), both before and after the second
pipeline, was a rail-served industrial distribution center. The best use could be “restored” after the second
pipeline by incurring $2.16 million to lower the pipeline, more than $600,000 in other modification costs,
and more than $300,000 in other development costs.19
Thus, Sikes opined that the total cost to restore to best
use is $3,112,500.
Sikes opined that Seaway’s concession that it
would pay these expenses “effectively prevent[s] industrial development of the land” west of the second pipeline. According to Sikes, the amended petition changed
the best use for the remainder of the Property west of
the pipelines to agricultural use because modifications
could no longer restore the Property to its pre-existing
best use. In other words, Sikes did not assert that
19

Sikes stated that the second pipeline would require Morello to “incur additional development costs to cross the easement
that did not exist before the taking.” He utilized the development
costs prepared by experts, Jack Carter and Dale Morris.

App. 45
Seaway’s concession was worthless because the conditions were unrealistic or onerous and therefore Morello
would still have to pay the same costs to modify his
land, leaving his damages unchanged. Instead, he asserted, without explanation, that the amended petition
somehow affirmatively bars or precludes Morello from
building a rail-served industrial distribution center
and therefore a different measure of damages now applied.
As a result, Sikes no longer included in his second
report the modification costs. Sikes, instead, conducted
a study of four comparable tracts sold for agricultural
use and concluded that the western remainder—the
largest portion of the Property—had decreased in market value from $30,000 an acre as an industrial site to
only $5,000 an acre as an agricultural site. The eastern
remainder of just 64 acres “remains relatively unchanged and retains most of the same characteristics
after the taking,” so it did not suffer any change in
damages valuation. Thus, even though the second
amended petition declared that Seaway would pay the
costs to lower or encase the second pipeline, Sikes’s
damage model for the remainder increased from $3.1
million to almost $3.3 million. So, the amended petition, according to Sikes, did not decrease Morello’s
damages; it actually increased them. Under that interpretation, the amended petition did not reduce or dismiss Seaway’s condemnation.

App. 46
b) Jack Carter
Before the second amended petition, another of
Morello’s designated experts, Jack Carter, who is an
engineer and site planner, prepared a plan for the tract
to be developed as a rail-served industrial distribution
center. His plan included new roads and rail spur lines
that would connect future buildings on the Property to
existing rail lines. The new rail spurs, in Carter’s plan,
involved multiple loops and crossed over two existing
pipeline easements and an existing high voltage easement in three different places. In his plan, the three
existing metal buildings in the TCEQ compliance area
would “likely be removed,” but that area would not be
part of the development. His plan drawing is below.

Before the amendment, Carter opined on the cost
to modify the remainder tract (apart from the TCEQ

App. 47
compliance area) so it could still be used for a rail-accessed industrial warehouse. The cost included constructing “expensive pipeline adjustments for road and
rail crossing” as well as additional, necessary drainage
costs for a detention basin and a connection culvert. In
his initial report, Carter stated that construction costs
of $2.8 million would need to be expended “to offset the
impacts of the new pipeline” on the Property development, of which $2.16 million was the cost to lower the
pipeline.
Carter’s second report opined that, as a result of
Seaway’s concession in its second amended petition
that it would pay the cost to lower or encase the pipeline upon receipt of actual development plans, the
$2.16 million cost would no longer need to be spent by
Morello; Carter therefore removed that cost from his
analysis. After adding one more cost that was not included in his first report, Carter stated that the development costs would be almost $2 million less than he
had stated in his first report.20 He offered no criticism
of Seaway’s concession nor any suggestion that it
would prevent the implementation of his plan. Carter’s
second report does not suggest that Seaway was changing the easement it was taking; it instead reduced the
current damages based on Seaway’s concession that it
would pay some rerouting costs, if necessary, in the future.

20

Carter’s second report removed $2.16 million for the cost
to lower the pipeline but added $160,000 in new costs.

App. 48
Carter’s amended report does not support a characterization of Seaway’s second amended petition as a
dismissal of its condemnation suit, which continued to
seek the same land while, in Carter’s opinion, causing
less damages because Seaway would pay some costs itself.
c)

Chris Farrar

Morello’s third designated expert, Chris Farrar, a
commercial real estate financial expert with expertise
in capitalizing commercial real estate projects, was
designated after Seaway filed its second amended petition. Farrar, as explained by Morello, would testify
that the conditions in Seaway’s second amended petition were “extremely onerous.” More specifically, he
would testify that the fourth condition—that Seaway
would pay for the costs to lower the second pipeline
only if Morello provided “proof that sufficient funding
for construction” had been obtained—would “make it
highly unlikely, if not impossible” for Morello “to obtain
funding through investment or economic financing
from any source.” Farrar opined that Seaway’s concession was, in effect, worthless for this reason. His opinion could have supported an analysis that neither the
land to be condemned nor Morello’s damages changed
with the amendment.

App. 49
d) Experts opinions do not support conclusion of functional abandonment
equivalent to a dismissal
If the second amended petition increased damages, as Sikes opined when he essentially adopted the
first model that was part of his initial report, it did not
dismiss Seaway’s condemnation. If the amendment decreased damages, as Carter opined, it did not harm Morello because Seaway would pay the mitigation costs
directly rather than indirectly through an award of
damages and Morello was pursuing a litigation-based
resolution either way. Finally, if the second amended
petition created an impossible condition for development and therefore was essentially worthless, as Farrar indicates, it changed nothing and in no event works
as a dismissal. Regardless, the parties’ damages dispute does not change what Seaway has always sought
in the litigation—to construct and operate a pipeline
and to pay Morello the compensation required by the
Texas Constitution for the taking. The second amended
petition at most changed how a portion of the costs associated with putting the land to its best use, post-taking, would be divided.
None of these experts’ opinions support the conclusion that the amendment to Seaway’s condemnation claim was a functional abandonment equivalent to
a dismissal of its claim.

App. 50
3.

Amendment not a functional dismissal

The only two cases in which courts have concluded
that an amendment to a condemnation petition was
equivalent to a functional dismissal are readily distinguishable and do not support the conclusion that
Seaway’s amendment functionally abandoned its condemnation claim similar to a dismissal. The amount of
land subject to condemnation did not change when
Seaway amended its condemnation petition. A distinct
tract was not removed from the claim. The use of the
property did not change. And Seaway’s explanation of
how that use qualified as a public necessity did not
change. Instead, the added provisions stated that Seaway would pay the costs to re-configure the pipeline in
the future to accommodate a rail-accessed industrial
distribution center, should Morello actually undertake
such a project. Further, none of the FKM Partnership
factors apply: Seaway’s planned easement use remained the same, which was to allow for the installation and operation of a common-carrier pipeline. See
255 S.W.3d at 637.
We are not persuaded that Seaway’s conditional
offer to pay a portion of the expenses that Morello
sought to recover constitutes a dismissal of its original
condemnation proceeding.
We overrule Morello’s third issue.

App. 51
Striking of Experts
In his fourth and final issue, Morello contends that
the trial court erred in striking some of his experts and
limiting the testimony of others. Morello intended to
rely on several of these experts to establish (1) that the
Property’s best use is as a rail-served industrial distribution center, (2) the appropriate compensation for the
taking based on this best use, and (3) the amount of
compensable damages for the remainder’s lost market
value.
A. Applicable law and standard of review
To evaluate whether the trial court erred by restricting expert evidence on these issues, we first address the appropriate standard for evaluating market
value damages, for designating the best use of property, and for the exclusion of expert witnesses.
1.

Market value damages

Landowners must be compensated for property
taken. U.S. CONST. amend. V; TEX. CONST. art. I, § 17(a).
Landowners are entitled to the fair market value of the
taken land. Exxon Pipeline Co. v. Zwahr, 88 S.W.3d 623,
627 (Tex. 2002). Market value is “the price the property
will bring when offered for sale by one who desires to
sell, but is not obliged to sell, and is bought by one who
desires to buy, but is under no necessity of buying.” Estate of Sharboneau, 48 S.W.3d at 182 (quoting State v.
Carpenter, 126 Tex. 604, 89 S.W.2d 979, 980 (1936)).

App. 52
The market value of property in a condemnation
proceeding is determined as of the date of the taking.
Sw. Bell Tel. Co. v. Radler Pavilion Ltd. P’ship, 77
S.W.3d 482, 485 (Tex. App.—Houston [1st Dist.] 2002,
pet. denied). A property’s current market value,
though, includes consideration of “the market for its
possible future use.” Enbridge Pipelines (E. Tex.) L.P. v.
Avinger Timber, LLC, 386 S.W.3d 256, 264 (Tex. 2012)
(quoting Estate of Sharboneau, 48 S.W.3d at 185)); see
Crosstex N. Tex. Pipeline, L.P. v. Gardiner, 505 S.W.3d
580, 611 (Tex. 2016) (factfinder may “consider all of the
uses to which the property is reasonably adaptable and
for which it is, or in all reasonable probability will become, available within the foreseeable future” (quoting
State v. Windham, 837 S.W.2d 73, 77 (Tex. 1992)). Current market value may take into account the option to
hold property as an investment for future development. Crosstex, 505 S.W.3d at 611; In re State, 355
S.W.3d 611, 617 (Tex. 2011) (orig. proceeding).
When a governmental entity condemns only part
of a tract, as occurred here, it must pay adequate compensation for the part taken and for any resulting
damage to the remainder.21 See TEX. CONST. art. 1,
21

In addition to damages to the property’s fair market value,
damages due to “required modifications to the remainder as a result of the condemnation” may be compensable in some circumstances. State v. Centennial Mortg. Corp., 867 S.W.2d at 783, 784
(Tex. 1993) (per curiam); see Interstate Northborough P’ship v.
State, 66 S.W.3d 213, 220 (Tex. 2001) (stating “modifications to
the remainder or loss of improvements on the remainder due to
condemnation are . . . compensable”). There are limitations
though, and not all damages to remainder property are compensable. Id. at 459. “Whether damages can be recovered depends on

App. 53
§ 17(a); see TEX. PROP. CODE § 21.042(c) (providing that
“damage to the property owner” includes “the effect of
the condemnation on the value of the property owner’s
remaining property.”). “Damages to remainder property are generally calculated by the difference between
the market value of the remainder property immediately before and after the condemnation, considering
the nature of any improvements and the use of the
land taken.” Cty. of Bexar v. Santikos, 144 S.W.3d 455,
459 (Tex. 2004); see Coble v. City of Mansfield, 134
S.W.3d 449, 454 (Tex. App.—Fort Worth 2004, no pet.).
Courts should admit as remainder-market-value
evidence such matters as suitability, adaptability, surroundings, conditions before and after, and all circumstances that tend to increase or diminish the
remainder’s market value. Coble, 134 S.W.3d at 454.
The goal is to determine how the market actually
would value the property, without enhancement. City
of Fort Worth v. Corbin, 504 S.W.2d 828, 830-31 (Tex.
1974) (“The objective of the judicial process . . . is to
make the landowner whole and to award him only
what he could have obtained for his land in a free market.”).

what kind of damage is involved.” Id. For example, costs for modifications necessary for future uses of the remainder are not recoverable if the identified future uses are remote, speculative, and
conjectural. Coble, 134 S.W.3d at 455. These “purely speculative
uses” are not relevant or admissible. Id. at 456 (quoting City of
Austin v. Cannizzo, 153 Tex. 324, 267 S.W.2d 808, 814 (1954)).

App. 54
2.

Highest and best use

In determining a property’s fair market value, the
factfinder is not limited by the current use of the property; “the factfinder may consider the highest and best
use to which the land taken can be adapted.” Zwahr,
88 S.W.3d at 628; see Enbridge Pipelines, 386 S.W.3d at
261 (same). “Highest and best use” is “the reasonably
probable and legal use of vacant land or an improved
property, which is physically possible, appropriately
supported, financially feasible and that results in the
highest value.” Enbridge G & P (E. Tex.) L.P. v. Samford, 470 S.W.3d 848, 857 (Tex. App.—Tyler 2015, no
pet.) (“Enbridge II”) (quoting City of Sugar Land v.
Home & Hearth Sugarland, L.P., 215 S.W.3d 503, 511
(Tex. App.—Eastland 2007, pet. denied)).
A tract’s existing use “is its presumed” best use,
“but the landowner can rebut this presumption.”
Zwahr, 88 S.W.3d at 628. To rebut the presumption and
to base damages on a property use “other than that to
which it is being put at the time,” a landowner has to
show that the property was (1) “adaptable” to the hypothetical future use at the time of the taking, (2) such
use was “reasonably probable within the immediate future, or a reasonable time,” and (3) “the market value
of the land has been enhanced thereby.” Radler Pavilion, 77 S.W.3d at 486; see Cannizzo, 267 S.W.2d at 815
(stating that market value takes “into consideration all
of the uses to which it is reasonably adaptable and for
which it either is or in all reasonable probability will
become available within the reasonable future”). If the
landowner does not rebut the presumption that the

App. 55
current use is the best use by meeting these three
Radler Pavilion factors, it would be speculative to base
damages on the landowner’s identified future use, and
evidence regarding this future use is inadmissible. 77
S.W.3d at 486.
In condemnation cases involving raw acreage—
similar to the Property at the time of the taking22—
evidence of hypothetical future uses is generally inadmissible. See Boswell v. Brazos Elec. Power Coop., Inc.,
910 S.W.2d 593, 601 (Tex. App.—Fort Worth 1995, writ
denied). The rationale for this rule is that evidence of
a hypothetical but speculative use tends to cause juries
to overstate a property’s value without a solid evidentiary basis. See id.
“Compensability is a question of law for the court,
and subject to de novo review.” Santikos, 144 S.W.3d at
459. Numerous courts have concluded that a landowner’s intended future use for property is inadmissible as too speculative and uncertain for purposes of
determining fair market value. For example, in State v.
Harrison, the landowner stated an intent to build a
commercial development on raw property but had
never taken “any steps” to do so. See 97 S.W.3d 810, 814
(Tex. App.—Texarkana 2003, no pet.), The court stated
that “evidence of a landowner’s subjective intent concerning the future use of the property is inadmissible
because it is too speculative and uncertain.” Id. In the
22

The only structures on the land at the time were vacant,
and the land was dedicated to agricultural use under Morello’s
agreement with Rosenberg.

App. 56
absence of any evidence that the owner took any action
to implement his intentions, his testimony about commercial development was inadmissible. Id. Other
courts have reached similar results. See Estate of Sharboneau, 48 S.W.3d at 184-85 (holding that expert testimony on future development was speculative because
it was based on “best possible outcome” after making
numerous “assumptions and estimates” without addressing “basic marketplace realities” or development
risks); Coble, 134 S.W.3d at 456-57 (stating that appraiser’s remainder damages opinion—which included
cost to comply, post-taking, with city ordinance applicable to residentially platted land—was speculative in
that it was based on assumption that land would be
developed as residential subdivision even though it
was unimproved, no such development had been proposed, and ordinance would not apply if more likely
commercial development occurred); Radler Pavilion,
77 S.W.3d at 486-87 (holding that expert opinion that
property’s best use was as high-density multi-use development was speculative because opinion was based
on layered assumptions, ignored problems with plan,
and assumed best possible outcome).
3.

Exclusion of expert damage valuation
as conclusory or speculative

An expert’s opinion is conclusory when it is without a reliable predicate. See Mack Trucks, Inc. v. Tamez,
206 S.W.3d 572, 578 (Tex. 2006); Burrow v. Arce, 997
S.W.2d 229, 236 (Tex. 1999). “And testimony is speculative if it is based on guesswork or conjecture.” Nat.

App. 57
Gas Pipeline Co. of Am. v. Justiss, 397 S.W.3d 150, 156
(Tex. 2012). “Opinion testimony that is conclusory or
speculative is not relevant evidence, because it does
not tend to make the existence of a material fact ‘more
probable or less probable.’ ” Coastal Transp. Co., Inc. v.
Crown Cent. Petroleum Corp., 136 S.W.3d 227, 232
(Tex. 2004). Likewise, expert testimony that would not
help the trier of fact to understand the evidence or to
determine a fact in issue is not relevant. See TEX. R.
EVID. 702.
The admission or exclusion of expert witnesses is
reviewed for an abuse of discretion. Mack Trucks, 206
S.W.3d at 578.
B. The trial court did not err in excluding Morello’s damage experts
Morello challenges the trial court’s orders striking
all or parts of the opinions of six of his experts. The
stricken experts were to opine on the Property’s best
use and post-taking adaptability costs for the remainder. We consider each expert separately.
1.

Jack Carter

Morello’s first stricken expert is Jack Carter.
Eighteen months after the Seaway taking, Carter prepared, at Morello’s request, a plan for building a railserved industrial development center on the Property.
Carter’s plan was prepared for this litigation and
based on Morello’s statement that he intends to

App. 58
develop the Property, either by himself or with investor
partners, as a rail-served industrial development center within the next fifteen years.23
Carter’s report did not state that his plan was the
Property’s best use but did state that he was told by
the two railroad companies that “this line is one of
their busiest lines and connects to Mexico” and that a
“large, rail served, distribution center” was feasible.
Carter further stated that Seaway’s pipeline “effectively severs the site into two tracts,” a western and
eastern tract, and that modifications in his plan would
be necessary to “mitigate the impacts to the development” of the Property so that it still could be put to
Morello’s identified future use.
Carter conceded in his deposition that he does not
know the cost to develop the plan or whether there is
any market demand for his plan. Nor could he identify
entities that would use the rail lines or products that
would be transported by them.
The trial court granted Seaway’s motion to strike
Carter’s opinion on the Property’s future use as a railserved industrial center as speculative and held that
his opinion on necessary modification costs was not relevant because it was based on a speculative future use.
We agree that Carter’s opinion was properly stricken.

23

Morello had no firm intentions to develop the Property as
a rail-served industrial center at the time of the taking; he testified, “I may develop it within 15 years.”

App. 59
To rebut the presumption that the Property’s current use at the time of the taking was its best use and
to show that a different use should be considered in
calculating damages, Morello had to show that the
Property was (1) “adaptable” to the hypothetical future
use—here, a rail-served industrial distribution center—at the time of the taking, (2) such use was “reasonably probable within the immediate future, or a
reasonable time,” and (3) “the market value of the land
has been enhanced thereby.” Radler Pavilion, 77
S.W.3d at 486; see Cannizzo, 267 S.W.2d at 815 (stating
that market value takes “into consideration all of the
uses to which it is reasonably adaptable and for which
it either is or in all reasonable probability will become
available within the reasonable future”).
Seaway argues that Carter failed to satisfy any of
the Radler Pavilion requirements, and therefore the
trial court did not abuse its discretion in excluding his
testimony or the other expert testimony regarding
damage to the remainder that was predicated on the
Property’s use as a rail-served industrial distribution
center.
It is unnecessary for us to determine whether Morello satisfied the first Radler Pavilion prong—adaptability—through Carter’s development plans because
we conclude that Morello has not satisfied the second
prong of that test. Regarding the second prong—
whether Morello presented evidence that the Property
could, in reasonable probability, be adapted to such use
within the immediate future or a reasonable time—
Morello did not offer any evidence that the Property

App. 60
was adaptable for such use in the immediate or reasonable future. There was no evidence of how long it
might take to adapt the Property. And there was no evidence that Morello has taken any concrete steps to implement Carter’s plans. Morello has not built any new
facilities on the Property or worked with the railroads
to build rail spur lines to connect to existing rail lines.
Morello and his experts did not identify any potential
developers, investors, or buyers for the Property who
would pursue the future use identified by Carter. Nor
did Morello’s experts address or even acknowledge obstacles that might limit the feasibility of the plan.24

24

The evidence suggests that there were numerous obstacles
that could delay implementation of Carter’s plan. The first is
whether the necessary approval could be obtained from the railway owners to connect warehouses on the Property to existing rail
lines and any delay that would result waiting for such approvals.
One of Morello’s experts testified that these approvals are “very
hard to get.”
The second potential obstacle is whether the necessary approval could be obtained from the owners of the electric distribution lines and associated easement to build in that area and any
delay that would result waiting for such approval. The easement
prohibits the construction of any structure except fences within
its area. Morello conceded that he has not sought consent for any
construction from these owners. Carter acknowledged that it is
very likely that the electrical easement owner would not approve
his plan without modifications. Additionally, Morello has not
identified any evidence concerning the delay this approval process
would cause.
The third obstacle is whether approval could be obtained
from the City of Rosenberg and any delay that would result waiting for the approval described in the Development Agreement.
Morello contends that there would be no delay, but he cites no
evidence to support this contention. Instead, he relies on a

App. 61
Morello concedes that he had not sought any approvals at the time of the taking. When asked whether
he had taken any action “to move the construction or
development forward” for a rail-accessed industrial
site on the Property, Morello testified he had not because of “market. You have to have a market. People
just don’t go out and develop things. You have to
have—the marketplace has to be there. It’s market
driven.” Another of Morello’s experts, Sikes, conceded
in his deposition that it could take years before
Carter’s plan could be developed because of the need to
obtain financing, approvals, and permits. Absent evidence that it was reasonably probable that such approvals could be obtained within a reasonable time,
Carter’s plan was speculative and not relevant.25 See
Estate of Sharboneau, 48 S.W.3d at 186.
In conclusion, there was no evidence that the identified future use as a rail-served industrial distribution
provision in the Development Agreement that provides that, if
Morello develops the Property without the City’s consent, the City
may construe such development as “a petition for voluntary annexation.” But the Development Agreement also states that the
City Council retains discretion to deny an annexation request and
that the City’s right to annex the Property is “in addition to the
City’s other remedies.”
The fourth obstacle is whether the necessary approval could
be obtained from TCEQ and any delay that would result waiting
for such approval. In oral argument, Morello conceded that such
approval would be necessary for his intended development. Morello has not sought TCEQ’s consent.
25
Given our resolution of this issue, it is unnecessary to address the trial court’s conclusion that Carter’s opinion should be
struck as untimely.

App. 62
center was reasonably probable within a reasonable
time. Morello argues that “reasonable time” presents a
fact issue, but evidence of hypothetical uses is inadmissible unless a landowner presents some evidence that
this Radler Pavilion factor is satisfied. 77 S.W.3d at
486. In the absence of such evidence, the trial court did
not abuse its discretion in concluding that a factfinder
cannot be left to speculate regarding how long it would
take to develop a rail-accessed industrial distribution
center. Without any evidence on the second Radler Pavilion factor, the identified future use was speculative
and inadmissible, and the trial court did not abuse its
discretion by excluding Carter’s testimony.
2.

Mike Sikes
a) Sikes’s opinion on best use before
the taking

Morello’s second stricken expert, Mike Sikes, is a
certified real estate appraiser. He concluded that the
Property’s best use before the taking was “industrial
development utilizing the rail access.” Seaway argued
that this use was impermissibly speculative as of the
date of the taking.
In his initial report written before Seaway’s concession, Sikes stated that the installation of Seaway’s
second pipeline changed the best use for the Property’s
western portion from industrial development to agricultural/rural/residential use but that the best use
could be restored to industrial development by making
certain modifications to the Property. Sikes presented

App. 63
two damages models and adopted the least costly of the
two.26 In his second report written after Seaway’s concession, Sikes abandoned the earlier damages model
and presented a third model.27 Thus, Sikes has offered
three different approaches for calculating the damage
to the remainder.
Following the same reasoning it used for striking
Carter’s testimony, the trial court struck Sikes’s expert
damages opinions as speculative. Regardless of which
of the three damages models he used, Sikes’s opinions
were based on the same underlying premise: the Property’s best use was as a rail-served industrial distribution center.

26

In the first model, Sikes opined that the 130 acres on the
west side of the pipeline had a value of $30,000 per acre if used
for rail-accessed industrial development. In contrast, it was worth
only $5,000 per acre if used for agricultural and residential. The
damages therefore were roughly $3.2 million. In the second
model, Sikes opined that the damages to the remainder were $3.1
million based on mitigation costs to restore the 130 acres to their
best use. This would require the expenditures identified by Carter
and Morris ($2.8 million), plus an entrepreneurial incentive of almost $300,000, resulting in a total of $3.1 million in mitigation
costs. Because his $3.1 million model was less, Sikes adopted the
second model.
27
In his second report, after Seaway’s second amended petition, Sikes discarded the mitigation costs model. Instead, he relied on his comparative sales analysis model. Morello argues that
Sikes did so because “development was no longer financially feasible,” the conditions imposed by Seaway’s second amended petition were “cumbersome and impractical,” and, therefore, the
second pipeline “could not be crossed.” Sikes’s report does not,
however, include these explanations for discarding his second
model.

App. 64
For the same reasons that such a development was
speculative for Carter, we hold that the trial court did
not abuse its discretion in concluding that it is likewise
speculative for Sikes based on this record. Morello
owned the Property for over 13 years and yet has not
taken any concrete steps to implement his plan. Even
if he were to begin today, Sikes conceded that it “could
take years” before the permits, financing, and construction could be completed and the Property could be operational as a rail-served industrial distribution
center, even if all obstacles to the plan were adequately
identified and addressed timely—an issue without any
expert evidence.
Sikes’s best-use opinion also fails Radler Pavilion’s third admissibility prong by failing to present reliable expert testimony that the land’s market value
would be “enhanced” by building a rail-served industrial distribution center. 77 S.W.3d at 486. To show enhancement, Sikes had to address how the market
value would be impacted by the costs and benefits of
such a project. He also had to address the four obstacles to development—each requiring consent of a third
party and a risk that consent would be delayed, if not
withheld—and how those obstacles would impact the
Property’s value.28

28

See n.24 supra. First, the market would have to consider
the risk that a prospective buyer would not obtain approval from
the two railway owners to build new rail lines on the Property to
connect warehouses to the existing rail line, and if the buyer
could, the market would have taken into account the cost and
time delay caused by obtaining such approvals as well as the cost

App. 65
Neither Morello nor Sikes identified any evidence
concerning the likelihood, cost, or time delays to overcome these obstacles or how the market would account
for them. But a willing buyer of the Property who
wanted to develop it as a rail-served industrial distribution center would have to assess the risk that the
necessary approvals might not be obtained, and this
risk would impact the Property’s market value. Sikes
assumes, without evidence, that all such approvals
could be readily obtained. Because Sikes has not provided a reliable basis for concluding that the market
would “enhance” the value of the Property based on its
proposed use as a rail-served industrial distribution
center, the trial court, for this additional reason, did
not abuse its discretion in determining that his opinion
was inadmissible.

of the rail spurs themselves. The market would consider the impact of these issues in accessing the Property’s market value.
Second, the market would have to consider the risk that a
prospective buyer would not obtain consent from the electric distribution line owners to develop in their easement, as well as the
cost and time delay caused by obtaining consent.
Third, the market would have to consider the risk that a prospective buyer would not obtain development approval from the
City of Rosenberg and the cost and time delay caused by obtaining
approval. Morello does not identify any evidence regarding how
the market would view the impact of the Development Agreement
on the remainder’s value.
Finally, the market would have to consider the risk that a
prospective buyer would not obtain development approval from
TCEQ and the cost and time delay caused by obtaining approval
of development, as well as any lingering regulatory obligations or
liabilities.

App. 66
Finally, evidence of an alternative best use different from the current use requires consideration of the
alternative’s economic feasibility. Enbridge II, 470
S.W.3d at 857. But Morello did not present any evidence that he or his experts conducted a marketability,
financial feasibility, or economic feasibility study. Indeed, his experts conceded that no such studies had
been conducted, though Sikes’s expert report conclusorily states that “financially feasible, and maximally
productive uses” were considered to “estimate” the
Property’s best use.
b) Sikes’s opinion on best use after
Seaway’s concession
Sikes opined in his second report that the best use
of the western remainder of the Property changed to
agricultural as a result of Seaway’s second amended
petition. Seaway argued that this opinion was unreliable and without any support (i.e., conclusory). Sikes offered no explanation for his opinion. Therefore it was
conclusory and inadmissible. See Elizondo v. Krist, 415
S.W.3d 259, 264-66 (Tex. 2013); Burrow, 997 S.W.2d at
236; see also City of San Antonio v. Pollock, 284 S.W.3d
809, 816, 819-20 (Tex. 2009); HARVEY BROWN & MELISSA
DAVIS, EIGHT GATES FOR EXPERT WITNESSES: FIFTEEN
YEARS LATER, 52 Hous. L. Rev. 1, 67 (2014) (stating that
expert testimony is conclusory or speculative when
“the expert fails to provide any explanation or predicate for her opinion”).
The trial court did not err by excluding this expert.

App. 67
3.

Chris Farrar

On July 15, 2016, the last day of the discovery period,29 Morello designated Chris Farrar, a financial expert, to testify that the conditions in Seaway’s second
amended petition made it highly unlikely or impossible for Morello to obtain financing for a rail-served industrial distribution center. The trial court struck his
testimony as untimely and irrelevant. Morello’s brief
contains only three sentences discussing Farrar, only
one of which discusses in summary manner the purported relevance of his opinion. Morello’s brief does not
address any of the specific issues regarding the timing
of Farrar’s designation.
Rule 38.1 of the Texas Rules of Appellate Procedure requires an appellant’s brief to “contain a clear
and concise argument for the contentions made, with
appropriate citations to authorities and to the record.”
TEX. R. APP. P. 38.1(i). A brief that fails to comply with
these requirements waives the complained-of error on
appeal. See Izen v. Comm’n for Lawyer Discipline, 322
S.W.3d 308, 322 (Tex. App.—Houston [1st Dist.] 2010,

29

The trial court, with the agreement of the parties, had extended the discovery deadline to July 15, 2016. Two months before the deadline, Seaway filed its Second Amended Petition
offering for the first time to move the second pipeline in the future
if Morello actually undertook development of the Property in line
with his litigation theory and expert development plans. On the
discovery deadline, which was one year after the July 2015 expert-designation deadline, Morello produced two revised expert
reports and designated for the first time Farrar as a real-estatefinance expert.

App. 68
pet. denied). We conclude Morello waived error on this
expert’s exclusion.
Even if we were not to find waiver, we would still
reject Morello’s contention that the trial court erred in
striking Farrar. When Morello designated Farrar, he
failed to provide an expert report as required by the
trial court’s April 2015 agreed docket control order, an
issue that Morello does not address in his brief. Moreover, Morello offered no explanation for taking two
months after the second amended petition was filed before designating Farrar.30 Under these circumstances,
we cannot conclude that the trial court abused its discretion in striking Farrar and concluding that Morello
had not demonstrated good cause for the delay in designating Farrar and for failing to provide an expert report.31
4.

Dale Morris

Morello designated R. Dale Morris to testify regarding the cost to lower the second pipeline as part of
30

Two months may have been reasonable, but Morello offered no evidence on this issue.
31
That Farrar’s expert designation did not occur until after
the July 2015 expert-designation deadline (as set forth in the
April 2015 agreed docket control order) did not make his designation untimely. Good cause existed for the late designation because
Morello did not need any expert testimony regarding the conditions set forth in Seaway’s second amended petition until after
Seaway filed that pleading. Instead, Farrar’s designation was untimely because he was not designated for two additional months,
and there was no explanation for the length of the delay, particularly in the absence of an expert report.

App. 69
a modification to the Property to enable it to retain its
best use as an industrial distribution center.32 For the
same reasons that Carter’s cost opinion was speculative and inadmissible, Morris’s restorative damages
opinion is as well.
Morris also opined regarding the cost Seaway
would incur to reroute the first pipeline under the 1975
agreement. Morello argues, that Morris’s opinion “is
relevant to the motivation of Seaway in refusing to consider Morello’s request” that the second pipeline be
placed in the area of the 1975 easement. The trial court
held that Seaway’s cost to relocate the first pipeline under the 1975 easement was not relevant because the
jury charge would not include it as an element of Morello’s claims.
The absence of such costs from the jury charge
does not necessarily mean the costs are not relevant to
Seaway’s motives. But before the 1975 agreement
could be relevant to Seaway’s motives, Seaway’s decision-makers at the time of the taking had to know its
terms. Morello has not identified any evidence that
Seaway’s decision-makers knew its terms.
Even assuming Morris’s opinion would be admissible on the issue of Seaway’s motives, Morello offers
no explanation for how Morris’s opinion, if it had not
been struck, would have created a fact issue on Morello’s arbitrariness affirmative defense. Indeed,
32

As Morello’s brief states, Carter “is not a pipeline constructability expert” and therefore he relied on Morris for the cost to
lower the pipeline.

App. 70
Morris’s opinion could not have raised a fact issue because it was not attached to Morello’s pleadings concerning the arbitrariness issue—either through an
affidavit or deposition.
5.

David Heslep

David Heslep, an environmental engineer, opined
regarding the pre-existing environmental problems on
roughly 17 acres of the Property and the cost to monitor the Property’s remediation efforts, possible future
changes to remediation procedures should TCEQ agree
to them, and future plans for the Property in light of
those possibilities. Morello argues, without citation to
the record, that Heslep’s testimony is relevant “to the
issue of post-condemnation market value (damage to
the remainder) of the property.” But Morello’s appraiser, Sikes, does not purport to rely on Heslep for
this damage calculation in either of his reports. Therefore, the trial court’s exclusion of his opinion was in any
event harmless.
6.

Richard Kuprewics

Morello also challenges the trial court’s exclusion
of Richard Kuprewics, who was designated to testify
that the Seaway pipeline could have been placed
within the 1975 easement safely. But Seaway did not
dispute that it could be done safely; the relevant issue
is whether it made a reasoned determination that 50foot easements were a safe approach.

App. 71
Even if the court erred in striking Kuprewics’s
opinion as irrelevant, any error was harmless because
we have already concluded that Morello did not present any evidence that Seaway’s safety determination
was arbitrary. Other feasible alternatives do not prove
that Seaway acted arbitrarily. See Whittington III, 384
S.W.3d at 783 (decision on scope of condemnation “does
not require the chosen course to be more feasible or
better than the alternative,” but rather “forbids decisions not made according to reason or judgment”); Ludewig, 773 S.W.2d at 614 (condemnor’s decision is not
arbitrary when condemnor chooses “least expensive
option” or “most economically feasible path for its pipeline”). Indeed, Kuprewics’s opinion could not have
raised a fact issue because it was never attached to Morello’s pleadings on the arbitrariness issue—either
through an affidavit or deposition.
Finally, Morello globally asserts that his experts’
opinions remained relevant, even if the stated future
uses were considered speculative, because they addressed appropriate “compensation for the cost of
curing or mitigating damage” resulting from the partial condemnation. But his experts did not offer opinions on the “cost to cure” the impact of the taking so
that the land could continue with its current agricultural use, or even a reasonably likely different use
within a reasonable time from the taking. Instead, they
opined on the cost to cure the Property so that it could
be used in the future as a rail-served industrial site—
a use that was remote and speculative. See State v.
Schmidt, 867 S.W.2d 769, 773 (Tex. 1993) (holding that

App. 72
speculative uses not reflected in land’s current market
value should be excluded); Coble, 134 S.W.3d at 455-56.
We overrule Morello’s last issue.
Conclusion
We affirm.
Harvey Brown,
Justice
Panel consists of Justices Keyes, Brown, and Lloyd.

App. 73
CAUSE NO. 13-CCV-050231
SEAWAY CRUDE
PIPELINE COMPANY
LLC,
Plaintiff,
v.
BERNARD J. MORELLO,
ET AL.,
Defendants.

§
§
§
§
§
§
§
§
§
§
§

EMINENT DOMAIN
PROCEEDING
THE COUNTY COURT
AT LAW NUMBER 3
FORT BEND
COUNTY, TEXAS

FINAL JUDGMENT
(Filed Sep. 21, 2016)
BE IT REMEMBERED that on this date. there
came on to be considered Seaway Crude Pipeline Company LLC’s (“Seaway”) Motion for Entry of Final Judgment. Without admitting or Judgment for Seaway’s
acquisition by condemnation of the easements described and depicted in the Exhibits A and B and A1
and B1 attached hereto and to Seaway’s Second
Amended Statement and Petition in Condemnation
(the “Second Amended Petition”), filed with the Court
on May 17, 2016.
It appears to the Court, and it is so found that Defendants, Bernard J. Morello (“Morello’) and White
Lion Holdings, LLC (“White Lion”) (collectively “Defendants”) are the legal owners of that certain real
property located in Fort Bend County, Texas (the “Subject Property”) across which the easements are sought

App. 74
by Seaway as more particularly set forth in Seaway’s
Second Amended Petition, which Subject Property is
more particularly described as:
Legal Descriptions
Morello Tract. Being a tract of land containing 115.22 acres, more or less, more particularly described by metes and bounds in that
certain Special Warranty Deed dated April 5,
2004 White Lion Holdings, L.L.C. to Bernard
J. Morello, recorded as Document Number
2004042732 of the Official Public Records of
Fort Bend County, Texas; less and except any
conveyances heretofore made.
White Lion Tract. Being a tract of land containing 25.322 acres, more or less, being
23.167 acres out of the C.P. Osborne Survey,
(A-691) and Moses Merritt Survey (A-87),
2.155 acres out of the Lester E. Cross Survey
(A-408). 25.322 certain Special Warranty
Deed from Vision Metals, Inc., a Delaware corporation to White Lion Holdings, L.L.C., a
Texas limited liability company dated April 5,
2004, effective as of and from April 6. 2004
recorded
under
Document
Number
2004042731 of the Official Public Records of
Fort Bend County, Texas; less and except any
conveyances heretofore made.
Being a tract of land containing 20 acres, more
or less, out of the Charles N. Simpson Survey,
(A-485), Fort Bend County, being more particularly described by metes and bounds s Tract
3 in that certain Special Warranty Deed from

App. 75
Vision Metals, Inc., a Delaware corporation to
White Lion Holdings, L.L.C., a Texas limited
liability company dated April 5, 2004, effective as of and from April 6, 2004 recorded under Document Number 2004042731 of the
Official Public Records of Fort Bend County,
Texas; less and except any conveyances heretofore made.
It appears to the Court, and it is so found based on
the Court’s review of matters on file in this cause, that
concerning the Morello Tract (a) Seaway deposited in
the registry of the captioned court of Fort Bend County,
Texas the amount of TWENTY-TWO THOUSAND
THREE HUNDRED SIXTY-EIGHT AND NO/100
DOLLARS ($22,368.00), and (b) Seaway posted its
Surety Bonds and Cost Bonds to satisfy Section 21.021
of the Texas Property Code.
It also appears to the Court, and it is so found
based on the Court’s review of matters on file in this
cause, that concerning the White Lion Tract (a) Seaway deposited in the registry of the captioned court of
Fort Bend County, Texas the amount of FIFTY-SEVEN
THOUSAND SIX HUNDRED AND SEVENTY-FIVE
AND NO/100 DOLLARS ($57,675.00), and (b) Seaway
posted its Surety Bonds and Cost Bonds to satisfy Section 21.021 of the Texas Property Code.
Based on the evidence, IT IS THEREFORE ORDERED, ADJUDGED AND DECREED by the Court
as follows:

App. 76
1. That this Final Judgment be, and the same is
hereby made, the Final Judgment of this Court.
2. That the Clerk of this Court record this Final
Judgment in the minutes of this Court.
Morello Tract
3. That by virtue of this Judgment Seaway does
have and recover of and from Morello a permanent
right-of-way and easement that is fifty feet (50') wide,
approximately 0.975 acres, and as more particularly
described and depicted on Exhibits A and B, attached
hereto and made a part hereof for all purposes, to survey, clear and excavate along a route, to lay, construct,
reconstruct, operate, maintain, inspect, test, repair, alter, protect, move, remove or replace the Pipeline and
appurtenant facilities, including and limited to, valves,
risers, meters, communication wires, cables, conduits
and devices and pigging facilities, as well as pipeline
markers and any such facilities and appurtenances as
may be required for cathodic protection on, in, over, under, through and across the Morello Tract (the Morello
Tract Permanent Easement”).
4. That by virtue of this Judgment Seaway does
have and recovers of and from Morello temporary
workspace and additional temporary workspace on the
Morello Tract during construction and installation of
the Pipeline. The temporary workspace and additional
temporary workspace are approximately 1.655 and
0.754 acres, respectively, and as more particularly described and depicted on Exhibits A and B, attached

App. 77
hereto and made a part hereof for all purposes (collectively the “Morello Tract Temporary Work Space Easement”) (the Morello Tract Permanent Easement and
Morella Tract Temporary Work Space Easement collectively the “Morello Tract Easements”). Seaway may
use and occupy the Morello Tract Temporary Work
Space Easement during the original construction of
the Pipeline and restoration of the Morello Tract, but
in no event longer than one (1) year from the date Seaway commences construction on the Morello Tract (the
“Morello Tract initial Construction Period”).
5. That Seaway’s pipeline shall not exceed thirty
inches (30") in nominal pipe diameter (the “Pipeline”).
Seaway will not construct, build, install, maintain or
have any above ground structures, installations, equipment or apparatus of any kind on or within the boundaries of the Morello Tract Permanent Easement other
than pipeline markers (that may be required to be
placed along the easement and right-of-way by applicable Department of Transportation Code regulations
and other applicable statutes and regulations of governmental authorities) and cathodic test leads.
6. That no pipeline or permanent facility will be
constructed on the Morello Tract Temporary Work
Space Easement. Seaway shall have the right to select
the exact location of the Pipeline within the Morello
Property Permanent Easement. Further, Seaway shall
have the right to construct, maintain and change
slopes of cuts and fills to ensure proper lateral and subjacent support and drainage for the Pipeline and appurtenant facilities.

App. 78
7. That Seaway, from time to time and as often
as necessary, shall have the right of ingress and egress
over, along, and across the Morello Tract Permanent
Easement (and the Morello Tract Temporary Work
Space Easement during the Morello Tract Initial Construction Period) and to access such rights-of-way and
Morello Tract Easements where they intersect any
public road or public rights-of-way or other easement
to which Seaway has the right to access.
8. That Seaway shall have the right to cut or
clear from the Morello Tract Permanent Easement
(and the Morello Tract Temporary Work Space Easement during the Morello Tract Initial Construction Period), all trees, shrubbery, undergrowth, and any other
obstructions that may injure, endanger or interfere
with the construction, operation, maintenance, repair
or use of the Pipeline and/or Morello Tract Permanent
Easement (and the Morello Tract Temporary Work
Space Easement during the Morello Tract Initial Construction Period). Seaway shall dispose of all brush and
debris, if any, cleared from the Morello Tract Easements by burning, chipping into less than four (4) inch
chips, burying and/or removing to an authorized disposal site. The method of disposal shall be selected by
Seaway. Upon completion of initial construction, Seaway will, insofar as reasonably practicable, level, regrade, and reseed the ground disturbed by its use of
the Morello Tract Easements and will restore any existing fences within the Morello Tract Easements to at
least the condition of the fences prior to Seaway’s entry
upon the Morello Tract Easements. Seaway agrees to

App. 79
reseed the Morello Tract Easements with the same
type of grass that existed on the Morello Tract Easements before Seaway’s use of the Morello Tract Easements. From and after the Initial Construction Period,
Seaway shall pay any damages which may arise to
growing crops, timber, fences and other improvements
from the construction, maintenance, and operation of
the Pipeline.
9. That during the Morello Tract Initial Construction Period, the trenching shall be done by double
ditching in such a manner so that the topsoil will be
separated from the balance of the dirt removed in making the ditch or trench for installation of the Pipeline.
In backfilling after installation of the Pipeline, the topsoil first removed shall be used as cover soil in such a
manner so as to result in it being returned to the top
of the ditch as topsoil. Seaway will maintain the Morello Tract Permanent Easement (and the Morello
Tract Temporary Work Space Easement during the
Morello Tract initial Construction Period) clear of all
litter and trash during periods of construction, operation, maintenance, repair or removal.
10. That Seaway shall, during the Morello Tract
Initial Construction Period, maintain suitable crossings on, over, and across the Morello tract Easements.
11. That Seaway shall comply in all material respects, at its sole cost, with all applicable federal, state,
and local laws, rules, and regulations which are applicable to Seaway’s activities hereunder, including,

App. 80
without limitation, the construction, use, operation,
maintenance, repair and service of the Pipeline.
12. That Seaway shall indemnify and hold harmless Morello, and his heirs, executors. administrators
and assigns, from and against all liability, damages,
suits, actions, costs and expenses of whatsoever nature
(including reasonable attorneys’ fees) to persons or
property including damages to Seaway or Seaway’s
property, caused by or arising out of Seaway’s operations hereunder relating to the construction, operation,
maintenance, alteration or service of the Pipeline, associated equipment, and appurtenances thereto.
13. That from and after the Initial Construction
Period, except as provided for in paragraph 14, Seaway
shall have the right to prevent the construction by Morello within the boundaries of the Morello Tract Permanent Easement, and the right to remove therefrom,
any and all types and sizes of houses, barns, buildings,
structures, permanent impoundments of water. and
natural or man-made obstructions, including but not
limited to trees, brush, roots and other growth,
whether growing on the Morello Tract Permanent
Easement or overhanging the Morello Tract Permanent Easement. Morello shall not have the right to substantially change the grade of the land, or remove the
cover, over the Pipeline.
14. That Morello shall, upon ninety (90) days
prior notice to Seaway, have the right to construct,
maintain, repair, underground communications conduits, electrical transmission and bridges, railroad

App. 81
tracks, underground communications conduits, electric
transmission and distribution lines, telephone lines,
gas, water, drainage and sewer pipelines, and other
utilities, across the Morello Tract Permanent Easement at any angle of not less than forty-five (45) degrees to the Pipeline; and the right to use the Morello
Tract covered by the Morello Tract. Permanent Easement for recreation or other similar purposes, not inconsistent or conflicting with Seaway’s use and
enjoyment of the Morello Tract Permanent Easement
for the purposes set forth herein; provided, however,
Morello shall exercise said rights in such a manner so
that (i) the Pipeline and facilities located within the
Morello Tract Permanent Easement shall not be endangered, obstructed, injured or interfered with; (ii)
Seaway’s access to the Morello Tract Permanent Easement, the Pipeline and its other facilities is not interfered with; (iii) Seaway shall not be prevented from
traveling within and along the entire length of the Morello Tract Permanent Easement on foot or in vehicles
or machinery; (iv) the Pipeline is left with the amount
of cover originally installed to allow safe operation of
the Pipeline; (v) the Pipeline is left with proper, sufficient, and permanent lateral support; and (vi) Seaway’s use of the Morello Tract Permanent Easement
for the purposes set forth herein is not unreasonably
impaired or interfered with. Morello can plow, cultivate
and farm the Morello Tract Permanent Easement
without notice to or the consent of Seaway, provided
that these operations do not disturb the Morello Tract
Permanent Easement to a subsurface depth below sixteen inches (16”) from the ground surface.

App. 82
15. That Seaway shall, at Seaway’s sole cost and
expense, lower and/or encase-the Pipeline, and/or take
other protective measures, as Seaway deems necessary
to permit Morello to Easement consistent with paragraph 14 above, provided that Morello first presents
Seaway with the following: (i) engineering plans and
profiles showing the design, specifications, and exact
location(s) of all proposed road, street, and/or railroad
crossings; (ii) copies of any governmental permits or
approvals required for construction of the proposed
road(s), street(s), and/or railroad tracks; (iii) in the case
of railroad tracks, proof that a railroad company that
owns or operates the railroad right-of-way along Texas
State Highway Spur 529 has agreed to provide rail service to the Morello Tract and/or the White Lion Tract;
and (iv) proof that sufficient funding for construction
of all of the proposed road(s), street(s), and railroad
tracks is in place. Upon being presented with the foregoing, Seaway shall have 180 days in which to complete any necessary work contemplated by this
paragraph. Seaway shall not be required to make accommodations for crossings under the terms of this
paragraph more than one time. Morello’s rights in this
paragraph shall inure to the benefit of the successor
owners of the Morello Tract.
16. That Seaway reserves the right to install
gates in any fences that cross the Morello Tract Permanent Easement. Seaway shall bury the Pipeline to
a minimum depth of thirty-six inches (36") below the
surface of the ground and any then-existing drainage
ditches, creeks and roads, except at those locations

App. 83
where rock is encountered the Pipeline may be buried
at a lesser depth.
17. That Seaway and its designated contractors,
employees and invitees agree to keep all gates and
fences closed and locked at all times except when passing through them so that cattle, horses and/or other
livestock located on the remainder portion of the Morello Tract cannot stray from the fenced pastures and
unauthorized persons cannot pass through them. Seaway shall have no right to fence or enclose the Morello
Tract Permanent Easement for any other purpose than
as stated in this paragraph.
18. That Seaway shall use the Morello Tract
Easements solely for the purposes specified herein.
There shall be no hunting or fishing on the Morello
Tract Easements or the Morello Tract by Seaway, its
officers, agents, employees, contractors, invitees,
guests or representatives at any time. No firearms or
fishing equipment shall be taken on the Morello Tract
Easements by Seaway, its officers, agents, employees,
contractors, invitees, guests or representatives at any
time.
19. That Morello shall retain all the oil, gas and
other minerals in, on and under the Morello Tract
Easements; provided, however, that Morello will not be
permitted to drill or operate equipment or develop the
minerals on the Morello Tract Easements, but will be
permitted to extract the oil and other minerals from
and under the Morello Tract Easements by directional
drilling and other means, so long as such activities do

App. 84
not damage, destroy, injure or interfere with Seaway’s
use of the Morello Tract Easements.
20. That to the extent permitted by law, Seaway
has the right to assign this Judgment for the Morello
Tract Easements in whole or part. The pipeline will be
utilized by Seaway, and its successors and assigns, as
a common carrier pipeline transporting oil, oil products, and crude petroleum.
21. That Morello or Morello’s heirs, successors or
assigns may be entitled to repurchase the Morello
Tract Easements, at the price paid to Morello by Seaway at the time Seaway acquire the Morello Tract
Easements by this proceeding, and request from Seaway information relating to the use of the Morello
Tract Easements and actual progress made toward the
use, as required under Title 4, Chapter 21, Subchapter
E of the Texas Property Code.
White Lion Tract
22. That by virtue of this Judgment Seaway does
have and recovers of and from White Lion a permanent
right-of-way and easement that is fifty feet (50') wide,
approximately 1.791 acres, and as more particularly
described and depicted on Exhibits A-1 and B-1, attached hereto and made a part hereof for all purposes,
to survey, clear and excavate along a route, to lay, construct, reconstruct, operate, maintain, inspect, test, repair, alter, protect, move, remove or replace the
Pipeline and appurtenant facilities, including and limited to, valves, risers, meters, communication wires,

App. 85
cables, conduits and devices and pigging facilities, as
well as pipeline markers and any such facilities and
appurtenances as may be required for cathodic protection on, in, over, under, through and across the White
Lion Tract (the “White Lion Tract Permanent Easement”).
23. That by virtue of this Judgment Seaway does
have and recovers of and from White Lion temporary
workspace and additional temporary workspace on the
White Lion Tract during construction and installation
of the Pipeline. The temporary workspace and additional temporary workspace are approximately 2.550
and 0.556 acres, respectively, and as more particularly
described and depicted on Exhibits A-I and B-1, attached hereto and made a part hereof for all purposes
(collectively the “White Lion Tract Temporary Work
Space Easement”) (the White Lion Tract Permanent
Easement and White Lion Tract Temporary Work
Space Easement collectively the “White Lion Tract
Easements”). Seaway may use and occupy the White
Lion Tract Temporary Work Space Easement during
the original construction of the Pipeline and restoration of the White Lion Tract, but in no event longer
than one (1) year from the date Seaway commences
construction on the White Lion Tract (the “White Lion
tract Initial Construction Period”).
24. That said Pipeline shall not exceed thirty
inches (30") in nominal pipe diameter. Seaway will not
construct, build, install, maintain or have any above
ground structures, installations, equipment or apparatus of any kind on or within the boundaries of the

App. 86
White Lion Tract Permanent Easement other than
pipeline markers (that may be required to be placed
along the easement and right-of-way by applicable Department of Transportation Code regulations and
other applicable statutes and regulations of governmental authorities) and cathodic test leads.
25. That no pipeline or permanent facility will be
constructed on the White Lion Tract Temporary Work
Space Easement. Seaway shall have the right to select
the exact location of the Pipeline within the White Lion
Tract Permanent Easement. Further, Seaway shall
have the right to construct, maintain and change
slopes of cuts and fills to ensure proper lateral and subjacent support and drainage for the Pipeline and appurtenant facilities.
26. That Seaway, from time to time and as often
as necessary, shall have the right of ingress and egress
over, along, and across the White Lion Tract Permanent Easement (and the White Lion Tract Temporary
Work Space Easement during the White Lion Tract Initial Construction Period) and to access such rights-ofway and White Lion Tract Easements where they intersect any public road or public rights-of-way or other
easement to which Seaway has the right to access.
27. That Seaway shall have the right to cut or
clear from the White Lion Tract Permanent Easement
(and the White Lion Tract Temporary Work Space
Easement during the White Lion Tract Initial Construction Period), all trees, shrubbery, undergrowth,
and any other obstructions that may injure, endanger

App. 87
or interfere with the construction, operation, maintenance, repair or use of the Pipeline and/or White Lion
Tract Permanent Easement (and the White Lion Tract
Temporary Work Space Easement during the White
Lion Tract Initial Construction Period). Seaway shall
dispose of all brush and debris, if any, cleared from the
White Lion Tract Easements by burning, chipping into
less than four (4) inch chips, burying and/or removing
to an authorized disposal site. The method of disposal
shall be selected by Seaway. Upon completion of initial
construction, Seaway will, insofar as reasonably practicable, level, re-grade, and reseed the ground disturbed by its use of the White Lion Tract Easements
and will restore any existing fences within the White
Lion Tract Easements to at least the condition of the
fences prior to Seaway’s entry upon the White Lion
Tract Easements. Seaway agrees to reseed the White
Lion Tract Easements with the same type of grass that
existed on the White Lion Tract Easements before Seaway’s use of the White Lion Tract Easements. From
and after the Initial Construction Period, Seaway shall
pay any damages which may arise to growing crops,
timber, fences and other improvements from the construction, maintenance, and operation of the Pipeline.
28. That during the White Lion Tract Initial
Construction Period, the trenching shall be done by
double ditching in such a manner so that the topsoil
will be separated from the balance of the dirt removed
in making the ditch or trench for installation of the
Pipeline. In backfilling after installation of the Pipeline, the topsoil first removed shall be used as cover soil

App. 88
in such a manner so as to result in it being returned to
the top of the ditch as topsoil. Seaway will maintain
the White Lion Tract Permanent Easement (and the
White Lion Tract Temporary Work Space Easement
during the White Lion Tract Initial Construction Period) clear of all litter and trash during periods of construction, operation, maintenance, repair or removal.
29. That Seaway shall, during the White Lion
Tract Initial Construction Period, maintain suitable
crossings on, over, and across the White Lion Tract
basements.
30. That Seaway shall comply in all material respects, at its sole cost, with all applicable federal, state,
and local laws, rules, and regulations which are applicable to Seaway’s activities hereunder, including, without limitation, the construction, use, operation,
maintenance, repair and service of the Pipeline.
31. That Seaway shall indemnify and hold harmless White Lion, and its heirs. executors, administrators and assigns. from and against all liability,
damages, suits, actions, costs and expenses of whatsoever nature (including reasonable attorneys’ fees) to
persons or property including damages to Seaway or
Seaway’s property, caused by or arising out of Seaway’s
operations hereunder relating to the construction,
operation, maintenance, alteration or service of the
Pipeline, associated equipment, and appurtenances
thereto.
32. That from and after the Initial Construction
Period, except as provided for in paragraph 33, Seaway

App. 89
shall have the right to prevent the construction by
White Lion within the boundaries of the White Lion
Tract Permanent Easement, and the right to remove
therefrom, any and all types and sizes of houses, barns,
buildings, structures, permanent impoundments of
water, and natural or man-made obstructions, including but not limited to trees, brush, roots and other
growth, whether growing on the White Lion Tract Permanent Easement or overhanging the White Lion
Tract Permanent Easement. White Lion shall not have
the right to substantially change the grade of the land
or remove the cover, over the Pipeline.
33. That White Lion shall, upon ninety (90) days
prior notice to Seaway, have the bridges, railroad
tracks, underground communications conduits, electric
transmission and distribution lines, telephone lines,
gas, water, drainage and sewer pipelines, and other
utilities, across the White Lion Tract Permanent Easement at any angle of not less than forty-five (45) degrees to the Pipeline; and the right to use the White
Lion Tract covered by the White Lion Tract Permanent
Easement for recreation or other similar purposes, not
inconsistent or conflicting with Seaway’s use and enjoyment of the White Lion Tract Permanent Easement
for the purposes set forth herein; provided, however,
White Lion shall exercise said rights in such a manner
so that (i) the Pipeline and facilities located within the
White Lion Tract Permanent Easement shall not be
endangered, obstructed, injured or interfered with; (ii)
Seaway’s access to the White Lion Tract Permanent
Easement, the Pipeline and its other facilities is not

App. 90
interfered with; (iii) Seaway shall not be prevented
from traveling within and along the entire length of
the White Lion Tract Permanent Easement on foot or
in vehicles or machinery; (iv) the Pipeline is left with
the amount of cover originally installed to allow safe
operation of the Pipeline; (v) the Pipeline is left with
proper, sufficient, and permanent lateral support; and
(vi) Seaway’s use of the White Lion Tract Permanent
Easement for the purposes set forth herein is not unreasonably impaired or interfered with. White Lion
can plow, cultivate and farm the White Lion Tract Permanent Easement without notice to or the consent of
Seaway, provided that these operations do not disturb
the White Lion Tract Permanent Easement to a subsurface depth below sixteen inches (16") from the
ground surface.
34. Seaway shall, at Seaway’s sole cost and expense, lower and/or encase the Pipeline, and/or take
other protective measures, as Seaway deems necessary
to permit White Lion to construct and maintain roads,
streets, and/or railroad tracks across the White Lion
Tract Permanent Easement consistent with paragraph
33 above, provided that White Lion first presents Seaway with the following: (i) engineering plans and profiles showing the design, specifications, and exact
location(s) of all proposed road, street; and/or railroad
crossings; (ii) copies of any governmental permits or
approvals required for construction of the proposed
road(s), street(s). and/or railroad tracks; (iii) in the case
of railroad tracks, proof that a railroad company that
owns or operates the railroad right-of-way along Texas

App. 91
State Highway Spur 529 has agreed to provide rail service to the White Lion Tract and/or the White Lion
Tract; and (iv) proof that sufficient funding for construction of all of the proposed road(s), street(s), and
railroad tracks is in place. Upon being presented with
the foregoing, Seaway shall have ISO days in which to
complete any necessary work contemplated by this
paragraph. Seaway shall not be required to make accommodations for crossings under the terms of this
paragraph more than one time. White Lion’s rights in
this paragraph shall inure to the benefit of the successor owners of the White Lion Tract.
35. That Seaway reserves the right to install
gates in any fences that cross the White Lion Tract.
Permanent Easement. Seaway shall bury the Pipeline
to a minimum depth of thirty-six inches (36") below the
surface of the ground and any then-existing drainage
ditches, creeks and roads, except at those locations
where rock is encountered the Pipeline may be buried
at a lesser depth.
36. That Seaway and its designated contractors,
employees and invitees agree to keep all gates and
fences closed and locked at all times except when passing through them so that cattle, horses and/or other
livestock located on the remainder portion of the White
Lion Tract cannot stray from the fenced pastures and
unauthorized persons cannot pass through them, Seaway shall have no right to fence or enclose the White
Lion Tract Permanent Easement for any other purpose
than as stated in this paragraph.

App. 92
37. That Seaway shall use the White Lion Tract
Easements solely for the purposes specified herein.
There shall be no hunting or fishing on the White Lion
Tract Easements or the White Lion Tract by Seaway,
its officers, agents, employees, contractors, invitees,
guests or representatives at any time. No firearms or
fishing equipment shall be taken on the White Lion
Tract Easements by Seaway, its officers, agents, employees, contractors, invitees, guests or representatives
at any time.
38. That White Lion shall retain all the oil, gas
and other minerals in, on and under the White Lion
Tract Easements; provided, however, that White Lion
will not be permitted to drill or operate equipment or
develop the minerals on the White Lion Tract Easements, but will be permitted to extract the oil and
other minerals from and under the White Lion Tract
Easements by directional drilling and other means, so
long as such activities do not damage, destroy, injure
or interfere with Seaway’s use of the White Lion Tract
Easements.
39. That to the extent permitted by law, Seaway
has the right to assign this Judgment for the White
Lion Tract Easements in whole or part. The pipeline
will be utilized by Seaway, and its successors and assigns. as a common carrier pipeline transporting oil, oil
products, and crude petroleum.
40. That White Lion or White Lion’s heirs, successors or assigns may be entitled to repurchase the
White Lion Tract Easements, at the price paid to White

App. 93
Lion by Seaway at the time Seaway acquires the White
Lion Tract Easements by this proceeding, and request
from Seaway information relating to the use of the
White the use, as required under Title 4, Chapter 21,
Subchapter E of the Texas Property Code.
41. That each party shall bear its/their own respective costs, attorneys’ fees, and expenses.
42. The Surety Bonds filed and posted by Seaway
are cancelled and any obligation arising thereunder
shall be null and void.
43. The Cost Bonds filed and posted by Seaway
are cancelled and any obligation arising thereunder
shall be null and void.
44. Seaway is indebted to Morello in the amount
of $29,533.50, offset by the $22,368.00 previously deposited amount contained in the registry of the Court
for Morello, excluding interest. In lieu of payment directly to Morello, Seaway may tender into the registry
of the Court the amount of $7,165.50 (the difference of
$29,533.50 and the previously deposited amount of
$22,368.00). Morello shall be entitled to any accrued
interest on amounts contained in the Court’s registry
for said deposits.
45. Seaway is indebted to White Lion in the
amount of $58,693.50. offset by the $57,675.00 previously deposited amount contained in the registry of the
Court for White Lion, excluding interest. in lieu of payment directly to White Lion, Seaway may tender into
the registry of the Court the amount of $1,018.50 (the

App. 94
difference of $58,693.50 and the previously deposited
amount of $57,675.00). White Lion shall be entitled to
any accrued interest on amounts contained in the
Court’s registry for said deposits.
46. That no execution for any damages awarded
to Defendants against Seaway shall issue, provided
that Seaway makes the tender of the amounts set forth
in Paragraphs 44 and 45 of this Judgment.
47. That by virtue of the Court’s entry of this Final Judgment, the Notice of Lis Pendens recorded at
Documents 2013027093 relating to the Morello Tract
and 2013027092 relating to the White Lion Tract of the
Official Public Records of Fort Bend County, Texas are
hereby released.
48. All relief not granted is denied. This is a Final Judgment.
Signed this 21st day of September 2016.
/s/ Elizabeth Ray
Presiding Judge
Honorable Elizabeth Ray
Counsel for Plaintiff:
tforestier@winstead.com and orsaklaw@gmail.com
Counsel for Defendants:
jls@luccismithlaw.com and jbain@bainandbainlaw.net

App. 95
CAUSE NO. 13-CCV-050231
SEAWAY CRUDE
§
PIPELINE COMPANY LLC, §
§
Plaintiff,
§
v.
§
§
BERNARD J. MORELLO,
§
ET AL,
§
Defendants
§

EMINENT DOMAIN
PROCEEDING
IN THE COUNTY
COURT AT LAW
NUMBER-3
FORT BEND
COUNTY, TEXAS

Order on Plaintiff ’s Motion to Strike Testimony
of Experts Carter and Sikes
(Filed Aug. 11, 2016)
Plaintiff filed a motion to strike the opinions
and/or testimony of the following defense experts: Jack
Carter, Mike [sic] Sikes, Richard Kuprewicz, David
Heslep, Jacqueline Lucci Smith, Joan Lucci Bain, Mike
Stafford, R. Dale Morris, Chris Farrar. Defendants filed
responsive papers. This order relates to only two of
these experts, Mr. Carter and Mr. Sikes. In reaching its
opinion, the Court has considered the written motions,
the responses and the oral arguments of counsel.
Most of the objections are based on three issues.
1. Are the experts’ opinions relevant; 2. Were the experts timely designated under the Docket Control Order (“DCO”); and 3. Are the experts’ amended reports
admissable.

App. 96
The Relevancy Argument: Jack Carter is an engineer and site planner. He opines that the highest and
best use of the property at issue is the development of
a “rail served, heavy truck, industrial, warehouse development.” His expert opinion states that the new
pipeline impacts development of this warehouse center, but that the damage can be cured for $2,835,000.
Mr. Carter arrives at that number based on testimony
from Expert Sikes.
Mike [sic] Sikes is a real estate appraiser. He
opines that the highest and best use of the taken property is industrial development with rail access. He bases this opinion on the opinion of Expert Carter. In his
first expert opinion, Mr. Sikes values the property at
$30,000 per acre for a total “cost to cure” of $3,200,727.
In his second opinion, filed in July 2016, he raises the
value to $50,000 per acre as a result of the diminution
in value of the remainder of the property resulting
from the amended petition filed by Plaintiff in May,
2016.
From a relevancy (and therefore admissibility)
standpoint, Expert Carter’s opinion is flawed. The
opinion is based on ‘remote, speculative, and conjectural uses” and, as such, must be excluded. City of
Harlingen v. Estate of Sharboneau, 48 S.W.3d 177 (Tex.
2001).
At the point in time of the taking, there was (and
still is) a Development Agreement in place between the
property owners and the City of Rosenberg that prohibits the development envisioned by the expert.

App. 97
Defendants have made no effort whatsoever to get that
agreement modified or rescinded. Even today, but more
importantly, at the time of the taking, there were no
rail spurs, no attempts to obtain necessary railroad approvals, and no conversations had or meetings planned
to get the City of Rosenberg to agree to alter the Development Agreement (which remains in place until
2027). Mr. Carter’s opinion improperly speculates upon
the use of the property fifteen years in the future, not
as of the time of the taking. In fact, even though the
original petition was filed in March of 2013, and the
taking occurred on August 2, 2013, to date none of
these steps have been attempted by the Defendants.
There were and still are no actual plans for development and literally no improvements have been attempted or made to the property which support the
expert’s opinion. If that were not enough, Mr. Moreno
[sic] testified at deposition that he might make the improvements in 15 years or so. (Morello deposition, p.
188, line 2). While the defense has provided case law to
support anticipated use in the future, all of those cases
require there to be some reality-based, real-life action
happening or at least reasonably anticipated at the
time of the taking. A “woulda-coulda-shoulda” expert
opinion, with no concrete, realistic, timely plan or evidence of some type of action by the Defendants is irrelevant and thus inadmissible.
The Motion to exclude the opinion of Expert Sikes
only asks for a partial exclusion of his opinion, that
portion dealing with the enhanced value of the lost

App. 98
property as a result of the “new” allegations in Plaintiff ’s Amended Petition. This is discussed below.
The Timeliness Argument: The first agreed DCO
was signed on April 15, 2015. In that DCO, the parties
agreed to designate all experts and provide expert reports no later than June 2, 2015. The second agreed
DCO set the designation of expert deadline at May,
2016. The experts at issue were never disclosed by the
defense as testifying experts until June 23-July 15,
2016, many, many months beyond the initial deadline.
The Defendant provided several responses to this aspect of the Plaintiff ’s motion to strike, including:
1. One expert testified in the Temporary Injunction hearing (so, no report is necessary);
2. The expert was known to the other side (so, no
surprise); and
3. Because the Plaintiff amended its petition in
July 2016, the new allegations necessitated a
change in the opinions of the experts.
Relevant DCO deadlines are as follows:
Expert Deadline: June 2, 2015
Defendant’s Amended Disclosure: June 23-July 15, 2016
None of the defense responses are sufficient to
overcome the extreme tardiness of the designations
and surely do not support the right to amend reports.
The Admissibility of the Amended Reports: In May
2016, the Plaintiff amended its original petition to include two new paragraphs (directed at each of the two

App. 99
defendants). In those paragraphs, the Plaintiff essentially alleges that it will, at its own cost, make necessary alterations to the pipeline in the event the
Defendant ever takes the necessary steps to prove that
it is, in fact, able and willing to make the land and contract modifications it needs to use the property as a
“rail served, heavy truck, industrial, warehouse development.” In essence, the Plaintiff appears to be hinting
that it does not believe the Defendants can or will use
the property in the manner set out by their experts,
and if they do, the Plaintiff will make the necessary
modifications at its own cost. In response to this practical approach to the problem at hand, the Defendants
INCREASED their damages and amended their expert
reports to include opinions beyond what was contained
in the original opinions. It is this amended expert report regarding the issue of the diminution of value of
the remainder of the property by Mr. Sikes that is the
subject of the Plaintiff ’s Motion to Strike. Mr. Sikes’
opinion is also flawed as to the issue of diminution of
value of the remainder for the same reasons articulated above. The Court GRANTS that motion as well
and strikes that portion of Expert Sikes’ opinion regarding the value of the remainder.
Simply put, none of defense arguments survives
the fundamental issue – the amended expert report by
Mr. Sikes and the expert opinions of Mr. Carter are irrelevant and are not timely filed.
Therefore, the Court GRANTS the motion to
strike the expert report of Jack Carter in its entirety

App. 100
and GRANTS the motion to partially strike the expert
opinion of Mike [sic] Sikes.
SIGNED this 11th day of August, 2016.
/s/ Elizabeth Ray
Elizabeth Ray, Judge Presiding
FILED FOR RECORD
NO. ___ TIME: 4:40 P.M.
AUG 11 2016
/s/ Laura Richard
County Clerk Fort Bend Co. Texas

App. 101
CAUSE NO. 13-CCV-050231
SEAWAY CRUDE
§
PIPELINE COMPANY LLC, §
§
Plaintiff,
§
v.
§
BERNARD J. MORELLO, §
§
ET AL,
§
Defendants
§

EMINENT DOMAIN
PROCEEDING
IN THE COUNTY
COURT AT LAW
NUMBER-3
FORT BEND
COUNTY, TEXAS

Order on Plaintiff ’s Motion to Strike Testimony
of Experts Kuprewicz and Heslep
(Filed Aug. 16, 2016)
Plaintiff filed a motion to strike the opinions
and/or testimony of the following defense experts: Jack
Carter, Mike Sikes, Richard Kuprewicz, David Heslep,
Jacqueline Lucci Smith, Joan Lucci Bain, Mike Stafford, R. Dale Morris and Chris Farrar. Defendants filed
responsive papers. This order relates to only two of
these experts, Mr. Kuprewicz and Mr. Heslep. In reaching its opinion, the Court has considered the written
motions, the responses and the oral arguments of counsel.
The objections to Mr. Kuprewicz are three-fold.
1. He has not filed an expert report, 2. Since his ultimate opinion is not in dispute, his testimony does not
relate to a jury issue and 3. His opinion is unreliable.
Defense argues that he testified at the TI hearing, so
no expert report is required. There is no legal basis

App. 102
given for this statement. Since he has not filed an expert report, which is required, he cannot testify and
since his expert opinion is not in dispute, his testimony
is irrelevant anyway.
The objection to Mr. Heslep is that his expert “report” (which is solely comprised of reports that have
been submitted to TECQ attempting to modify the permit with regards to groundwater contamination; e.g.
not a report) describes current, ongoing work to modify
the TCEQ permit. The only question before the jury
will be the value of the property at the time of the taking. Since the Court has previously ruled that it would
not admit testimony that is based on “remote, speculative, and conjectural uses”, it will not admit testimony
from Mr. Heslep regarding present day efforts to remediate the land.
Put another way, the testimony at trial will be limited to the value at the time of the taking. There has
been nothing seen thus far by the court that would allow testimony regarding future anticipated use.
Therefore, the Court GRANTS the motion to
strike the expert testimony of Richard Kuprewicz and
GRANTS the motion to strike the expert testimony of
David Heslep.
SIGNED this 16th day of August, 2016.
/s/ Elizabeth Ray
Elizabeth Ray, Judge Presiding

App. 103
FILED FOR RECORD
NO. ___ TIME: 3:09 P.M.
AUG 16 2016
/s/ Laura Richard
County Clerk Fort Bend Co. Texas

App. 104
CAUSE NO. 13-CCV-050231
SEAWAY CRUDE
§
PIPELINE COMPANY LLC, §
§
Plaintiff,
§
v.
§
BERNARD J. MORELLO, §
§
ET AL,
§
Defendants
§

EMINENT DOMAIN
PROCEEDING
IN THE COUNTY
COURT AT LAW
NUMBER-3
FORT BEND
COUNTY, TEXAS

Order on Plaintiff ’s Motion to Strike Testimony
of Experts Smith, Bain, Stafford, Morris and Farrar
(Filed Aug. 16, 2016)
Plaintiff filed a motion to strike the opinions
and/or testimony of the following defense experts: Jack
Carter, Mike Sikes, Richard Kuprewicz, David Heslep,
Jacqueline Lucci Smith, Joan Lucci Bain, Mike Stafford, R. Dale Morris and Chris Farrar. Defendants filed
responsive papers. This order relates to five of these
experts, Ms. Smith, Ms. Bain, Mr. Stafford (attorneys’
fees), Mr. Morris (pipeline construction) and Mr. Farrar
(Commercial Real Estate). In reaching its opinion, the
Court has considered the written motions, the responses and, to the extent presented, the oral arguments of counsel.
The objections to Experts Smith, Bain and Stafford are that:

App. 105
1.

The designations are untimely;

2. There are no reports from any of the experts
and
3.

The testimony is cumulative.

The Court sustains the cumulative argument, but
will allow one attorneys’ fees expert to testify regarding reasonable and necessary fees IF that expert files
a report seven days prior to trial and updates the report the night before he/she testifies. In the event
Plaintiffs wishes to take the deposition of the designated expert, that person will make himself/herself
available during the week of August 22, 2016 with 72
hours notice.
Expert Morris was originally a consulting expert
until he was designated as a testifying expert on July
15, 2016. As a consulting expert, he opined about the
estimated cost to lower the pipeline. His new designation states that he “may testify about construction cost
impacts to Seaway/Enterprise related to the relocation
of the 1975 Seaway easement on Defendants’ property.” However, the jury will not be asked to decide the
cost of relocating the 1975 pipeline and therefore this
testimony is irrelevant. His consulting expert opinions
may be used by other testifying experts (if previously
disclosed), but not by Mr. Morris as he was not timely
designated as a testifying expert.
The objections to Mr. Farrar, a commercial real estate expert, are the timeliness of his designation (July,
2016) and likely the nature of his report (2 paragraphs

App. 106
contained in the July, 2016 designation, unsigned by
Mr. Farrar). He is designated to testify about . . . “Defendants’ ability to raise capital or obtain funding and
permitting for development.” Defendants suggest he,
like Mr. Morris, has been designated as a result of the
amended petition filed by the Plaintiffs. Mr. Farrar’s
opinions are not related to the time of the taking and
are, therefore, irrelevant.
Put another way, the testimony at trial will be limited to the value at the time of the taking. There has
been nothing seen thus far by the court that would allow testimony regarding future anticipated use.
Therefore, the Court GRANTS the motion to
strike the expert testimony of R. Dale Morris and
GRANTS the motion to strike the expert testimony of
Chris Farrar. The Court further GRANTS the motion
to limit expert testimony regarding attorneys’ fees to
one witness, subject to the rulings set out above.
SIGNED this 16th day of August, 2016.
/s/ Elizabeth Ray
Elizabeth Ray, Judge Presiding
FILED FOR RECORD
NO. ___ TIME: 4:45 P.M.
AUG 16 2016
/s/ Laura Richard
County Clerk Fort Bend Co. Texas

App. 107
FIRST COURT OF APPEALS
301 Fannin Street
Houston, Texas 77002-2066
November 27, 2018
RE:

Case No. 01-16-00765-CV

Style: Bernard J. Morello and White Lion Holdings, L.L.C.
v. Seaway Crude Pipeline Company, LLC
Please be advised the Court today Denied Appellant’s motion for rehearing en banc in the above referenced cause.
Panel consists of: Chief Justice Radack, Justices
Keyes, Brown, Jennings, Massengale, Caughey, Bland,
Higley and Lloyd
T. C. Case # 13-CCV-050231

Christopher A. Prine,
Clerk of the Court

Jacqueline Smith
Lucci Smith Law Firm, PLLC
2550 Gray Falls Dr Ste 395
Houston, TX 77077
DELIVERED VIA E-MAIL

App. 108
RE: Case No. 19-0017
COA #: 01-16-00765-CV

DATE: 5/31/2019
TC#: 13-CCV-050231

STYLE: MORELLO v. SEAWAY CRUDE PIPELINE
CO.
Today the Supreme Court of Texas denied the petition for review as amended in the above-referenced
case. (Justice Guzman not sitting)

App. 109
RE: Case No. 19-0017
COA #: 01-16-00765-CV

DATE: 12/13/2019
TC#: 13-CCV-050231

STYLE: MORELLO v. SEAWAY CRUDE PIPELINE
CO.
Today the Supreme Court of Texas denied the motion for rehearing of the above-referenced petition for
review. (Justice Guzman and Justice Bland not participating)

App. 110
CONSTITUTION OF THE UNITED STATES
AMENDMENT V
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put
in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall private property be taken for public use, without just compensation.

CONSTITUTION OF THE STATE OF TEXAS
Article 1, Section 17
(a) No person’s property shall be taken, damaged, or
destroyed for or applied to public use without adequate
compensation being made, unless by the consent of
such person, and only if the taking, damage, or destruction is for:
(1) the ownership, use, and enjoyment of the
property, notwithstanding an incidental use, by:
(A) the State, a political subdivision of the
State, or the public at large; or
(B) an entity granted the power of eminent
domain under law; or

App. 111
(2) the elimination of urban blight on a particular parcel of property.
(b) In this section, “public use” does not include the
taking of property under Subsection (a) of this section
for transfer to a private entity for the primary purpose
of economic development or enhancement of tax revenues.
(c) On or after January 1, 2010, the legislature may
enact a general, local, or special law granting the
power of eminent domain to an entity only on a twothirds vote of all the members elected to each house.
(d) When a person’s property is taken under Subsection (a) of this section, except for the use of the State,
compensation as described by Subsection (a) shall be
first made, or secured by a deposit of money; and no
irrevocable or uncontrollable grant of special privileges or immunities shall be made; but all privileges
and franchises granted by the Legislature, or created
under its authority, shall be subject to the control
thereof.

TEXAS STATE STATUTE
Property Code Section 21.019
(a) A party that files a condemnation petition may
move to dismiss the proceedings, and the court shall
conduct a hearing on the motion. However, after the
special commissioners have made an award, in an effort to obtain a lower award a condemnor may not dismiss the condemnation proceedings merely to institute

App. 112
new proceedings that involve substantially the same
condemnation against the same property owner.
(b) A court that hears and grants a motion to dismiss
a condemnation proceeding made by a condemnor under Subsection (a) shall make an allowance to the
property owner for reasonable and necessary fees for
attorneys, appraisers, and photographers and for the
other expenses incurred by the property owner to the
date of the hearing.
(c) A court that hears and grants a motion to dismiss
a condemnation proceeding made by a property owner
seeking a judicial denial of the right to condemn or that
otherwise renders a judgment denying the right to condemn may make an allowance to the property owner
for reasonable and necessary fees for attorneys, appraisers, and photographers and for the other expenses
incurred by the property owner to the date of the hearing or judgment.

App. 113
STATE OF TEXAS

§
§
COUNTY OF FORT BEND §
CHAPTER 43 TEXAS LOCAL
GOVERNMENT CODE
DEVELOPMENT AGREEMENT
This Agreement is entered into pursuant to Sections
43.035 and 212.172 of the Texas Local Government
Code by and between the City of Rosenberg, Texas (the
“City”) and the undersigned property owner(s) (the
“Owner”). The term “Owner” includes all owners of the
Property.
WHEREAS, the Owner owns a parcel of real property
(the “Property”) in Fort Bend County, Texas, which is
more particularly and separately described in the attached Exhibit “A”; and
WHEREAS, the Owner desires to have the Property
remain in the City’s extraterritorial jurisdiction, in
consideration for which the Owner agrees to enter into
this Agreement; and
WHEREAS, this Agreement is entered into pursuant
to Sections 43.035 and 212.172 of the Texas Local Government Code, in order to address the desires of the
Owner and the procedures of the City; and
WHEREAS, the Owner and the City acknowledge that
this Agreement is binding upon the City and the
Owner and their respective successors and assigns for
the term (defined below) of this Agreement; and

App. 114
WHEREAS, this Development Agreement is to be recorded in the Real Property Records of Fort Bend
County, Texas.
NOW, THEREFORE, in consideration of the mutual
covenants contained herein, the parties hereto agree
as follows:
Section 1. The City guarantees the continuation of
the extraterritorial status of the Owner’s Property,
its immunity from annexation by the City, and its immunity from City property taxes, for the term of this
Agreement, subject to the provisions of this Agreement. Except as provided in this Agreement, the City
agrees not to annex the Property, agrees not to involuntarily institute proceedings to annex the Property,
and further agrees not to include the Property in a
statutory annexation plan for the Term of this Agreement.
Section 2. The Owner covenants and agrees not to
use the property for any use other than for agriculture,
consistent with Chapter 23 of the Texas Tax Code, except for any now-existing single-family residential use
of the property, without the prior written consent of the
City.
The Owner covenants and agrees that the Owner will
not file any type of subdivision plot or related developmental document for the Property with Fort Bend
County or the City until the Property has been annexed into the City.

App. 115
During the duration of this Agreement, the Owner covenants and agrees not to construct, or allow to be constructed, and buildings on the property that would
require a building permit if the Property were in the
City limits, subject to the exceptions set forth herein.
The Owner reserves the right to construct, repair, or
renovate buildings on the Property that are consistent
with its agricultural use without obtaining a building
permit or triggering annexation. Further, the Owner
may construct an accessory structure to an existing
single-family dwelling. Additionally, Owner reserves
the right to construct a new residence on the Property,
provided that Owner provides written notice of the
construction to the City so that the parties can modify
the description of the land subject to this Agreement.
The Owner acknowledges that each and every Owner
of the Property must sign this Agreement in order for
the Agreement to take full effect, and the Owners who
sign this Agreement covenants and agrees, jointly and
severably, to indemnify, hold harmless, and defend the
City against any and all legal claims, by any person
claiming an ownership interest in the Property who
has not signed the Agreement, arising in any way from
the City’s reliance on this Agreement.
Section 3. The Owner acknowledges that if any plat
or related development document is filled in violation
of this Agreement, then in addition to the City’s other
remedies, such act will constitute a petition for voluntary annexation by the Owner, and the Property will
be subject to annexation at the discretion of the City
Council. The Owner agrees that such annexation shall

App. 116
be voluntary and the Owner hereby consents to such
annexation as though a petition for such annexation
had been tendered by the Owner.
If annexation proceedings begin pursuant to this Section, the Owner acknowledges that the Agreement
serves as an exception to Local Government Code section 43.052, requiring a municipality to use certain
statutory procedures, including notices and hearings
under an annexation plan. Furthermore, the Owner
hereby waives any and all vested rights and claims
that they may have under Section 43.002(o)(2) and
Chapter 245 of the Texas Local Government Code that
would otherwise exist by virtue of any actions Owner
has taken in violation of Section 2 herein.
Section 4. Pursuant to Sections 43.035(b)(1)(B) of
the Texas Local Government Code, the City is authorized to enforce all of the City’s regulations and planning authority that do not interfere with the use of the
area for agriculture, wildlife management, or timber.
The City has the discretion to enforce regulations applicable to: fireworks, non-agriculture burning, flood
plain management, and billboards within the area.
The City states and specifically reserves its authority
pursuant to Chapter 251 of the Texas Local Government Code to exercise eminent domain over property
that is subject to a Chapter 43 and/or Chapter 212 development agreement.
Section 5. In accordance with Texas Local Government Code 212.172(d), the initial term of this Agreement (the “Initial Term”) is fifteen (15) years from the

App. 117
date that the City Manager’s signature to this Agreement is acknowledged by a public notary; the total duration of this Agreement and any successive renewals
or extensions may not exceed forty-five (45) years. Unless each party agrees to a subsequent term, the City
will commence the annexation of the Property at the
end of the Initial Term. In connection with annexation
pursuant to this Section, the Owners hereby waive any
vested rights they may have under Section 43.002(o)(2)
and Chapter 245 of the Texas Local Government Code
that would otherwise exist by virtue of any plat or construction any of the Owners may initiate during the
time between the expiration of this Agreement and the
institution of annexation proceedings by the City.
Section 6. Any person who sells or conveys any portion of the Property shall, prior to such sale or conveyance, give written notice of this Agreement to the
prospective purchaser or grantee, and shall give
written notice at the sale or conveyance to the City.
Furthermore, the Owners and the Owners’ heirs, successors, and assigns shall give the City written notice
within 14 days of any change in the agricultural exemption status of the Property. A copy of either notice
required by this Section shall be forwarded to the City
at the following address:
City of Rosenberg
Attn: City Manager
2110 4th Street
Rosenberg, Texas 77471

App. 118
Section 7. This Agreement shall run with the Property and be recorded in the Real Property Records of
Fort Bend County, Texas.
Section 8. If a court of competent jurisdiction determines that any covenant of this Agreement is
Void or Unenforceable, including the covenants regarding involuntary annexation, then the remainder
of this Agreement shall remain in full force and effect.
Section 9. This Agreement may be enforced by any
Owner or the City by any proceeding of law or in equity.
Failure to do so shall not be deemed a waiver to enforce
the provisions of this Agreement thereafter.
Section 10. No subsequent change in the law regarding annexation shall affect the enforceability of this
Agreement or the City’s ability to annex the properties
covered herein pursuant to the terms of this Agreement.
Section 11. Venue for this Agreement shall be in
Fort Bend County, Texas.
Section 12. This Agreement may be separately executed in individual counterparts and, upon execution,
shall constitute one and same instrument.
Section 13. This Agreement shall survive its termination to the extent necessary for the implementation
of the provisions of Sections 3, 4, and 5 herein.

App. 119
In witness whereof, the above and foregoing provisions
are hereby agreed to, and accepted and approved by
the parties.
“OWNER”
BERNARD J. MORELLO
By: /s/ Bernard J. Morello
Printed Bernard J. Morello
Name:
Date:

8/1/12

THE STATE OF TEXAS

§
§

COUNTY OF FORT BEND §
This instrument was acknowledged before me on the 1
day of Aug., 2012, by Bernard Morello being known to
me to be the person whose name is subscribed to the
foregoing instrument and acknowledged to me that
he/she executed the same for the purposes and consideration therein expressed.
Vanessa Garza
My Commission
(NOTARY Expires
SEAL) 06/22/2013
[SEAL]

/s/ Vanessa Garza
Notary Public,
State of Texas

App. 120
“CITY”
City of Rosenberg, Texas
By: /s/ Jack S. Hamlett
Printed
Name: Jack S. Hamlett
Title:

City Manager

Date:

9-10-12

THE STATE OF TEXAS

§
§

COUNTY OF FORT BEND §
This instrument was acknowledged before me on the
10th day of Sept., 2012, by Jack S. Hamlett, as City
Manager of the City of Rosenberg, Texas, known to me
to be the person whose name is subscribed to the foregoing instrument and acknowledged to me that he executed the same for the purposes and consideration
therein expressed.
LINDA CERNOSEK
MY
[SEAL] COMMISSION
EXPIRES
April 17, 2016
(NOTARY SEAL)

/s/ Linda Cernosek
Notary Public,
State of Texas

App. 121
After Recording, Return To:
Travis Tanner
City of Rosenberg
2220 Fourth Street
Rosenberg, Texas 77471

EXHIBIT “A”
Owner: Morello, Bernard
5100 SAN FELIPE ST UNIT 78E
HOUSTON, TX 77056-3680
Fort Bend Central Appraisal District Tax Account
Number: 0485-00-012-0081-901
Legal Description: 0485 C N SIMPSON, TRACT 8 (PT),
BLOCK 12, ACRES 115.22
FILED AND RECORDED
OFFICIAL PUBLIC RECORDS
/s/ Dianne Wilson
Dianne Wilson, County Clerk
Fort Bend County, Texas
September 14, 2012
[SEAL]
02:59:04 PM
FEE: $32.00 SP
AGREEMENT

